U.S. Department of Justice
Office of the Inspector General




An Investigation of Travel Reimbursements
in Connection with the INS’s Operation
Safeguard




                                                  December 2002
                                  Office of the Inspector General
                         EXECUTIVE SUMMARY

I.    Introduction

       In 1999, Operation “Safeguard 99” (hereinafter referred to as
Operation Safeguard) was established in the Tucson Border Patrol Sector
as part of the Immigration and Naturalization Service’s (INS) National
Strategy to secure control of the southwest border. This Tucson Sector
initiative was first launched in 1994, on a much smaller basis, as
Operation “Safeguard 1994.” Similar operations to control illegal
crossings in other Border Patrol sectors, such as in the El Paso and San
Diego sectors, eventually shifted the flow of illegal crossing into the
Tucson Sector’s area of operations. Therefore, as part of Operation
Safeguard 99, many Border Patrol resources were redirected in 1999 to
support the Tucson Sector’s prevention and interdiction efforts.

      As a result, since 1999 the INS has detailed thousands of agents
and other personnel to the Tucson Sector, and to Douglas, Arizona in
particular, to participate in the operation. The number of Border Patrol
agents (BPA) who were detailed to the Tucson Sector varied from month
to month, but averaged approximately 100 per month.

       The rapid increase of BPAs in southern Arizona presented a
significant stimulus to that economy, and local lodging providers
welcomed the increased business. Despite the large number of Border
Patrol agents requiring lodging on a regular basis, however, the INS did
not seek to negotiate, as an agency, a competitive lodging rate with area
hotels and apartment complexes. Rather, the detailed BPAs were left on
their own to secure whatever lodging arrangements they could find.

       In an effort to obtain and ultimately retain the agents’ business,
many local lodging providers offered special incentives for the agents to
rent lodging from them. These incentives included food vouchers, credits
at restaurants, complimentary meals, gym memberships, and in some
cases cash rebates. Until after the complaints that were the basis for
this investigation arose, however, INS management did not provide policy
or ethical guidance to its employees concerning the incentives that the
lodging providers offered. In our investigations, we also found that in
some cases supervisory Border Patrol agents rented rooms in their
homes to other agents or purchased rental properties to rent to agents.

      Two Border Patrol agents who were permanently assigned to the
Douglas Border Patrol Station reported allegations of misconduct
regarding these lodging benefits to United States Congressman Jim
Kolbe, whose district covers the Douglas area. The allegations concerned
four areas: 1) that some detailed Border Patrol agents had committed


                                    1
travel voucher fraud in connection with the lodging benefits; 2) that
Supervisory Border Patrol Agents had rented properties to subordinate
agents; 3) that an INS Office of Internal Audit (OIA) agent, who the INS
had assigned to investigate these allegations, had refused to adequately
pursue the matter; 4) and that Border Patrol managers in the Tucson
Sector retaliated against the complainants for reporting the allegations.

       In September 2001, Congressman Kolbe requested that the
Department of Justice’s Office of the Inspector General (OIG) investigate
the complainants’ allegations and the circumstances surrounding the
detailing of agents in support of Operation Safeguard. He further asked
that the OIG examine the types and legality of the incentives that the
lodging providers offered to those agents.

      In response to these complaints, the OIG opened this investigation.
This report summarizes our findings.

II.      The Scope of the OIG Investigation

      To investigate these allegations, we initially obtained a listing from
the INS Western Region identifying all employees who were detailed to
Operation Safeguard. We then requested that INS locate and provide
copies of all available travel vouchers submitted by those employees who
were detailed to the Tucson Sector during Fiscal Years 2000 and 2001.1
(Our request is included as Exhibit 1.) Thereafter, we obtained and
audited 3045 travel vouchers from the INS Finance Center in Dallas,
Texas for Fiscal Years 2000 and 2001 covering those individuals who
were detailed to all Tucson Sector Border Patrol stations in support of
Operation Safeguard.2

      We analyzed and inputted the information contained in these 3045
vouchers into an OIG database. From these vouchers, we determined
that 1,436 INS employees were detailed to the Tucson Sector in support
of Operation Safeguard during Fiscal Years 2000 and 2001. In addition,
we identified 250 lodging providers where detailed INS employees stayed
during this period.

      Through OIG subpoenas, we obtained lodging receipts and rental
contract records from the largest lodging providers. We also reviewed
records maintained at the Cochise County Tax Assessor and Recorder’s
1
  Our review covered vouchers during the period from October 1, 1999 to September 30, 2001. Because
we received the allegations in 2001, we decided to focus our review on the two-year period prior to
Congressman Kolbe’s request to the OIG.
2
  We believe that the INS’s Tucson Sector cooperated fully with our review. It provided access to records
and facilitated our interviews of key witnesses. Similarly, the San Diego Sector, from where the bulk of the
agents had been detailed, also greatly assisted us in this investigation.


                                                     2
Offices to ascertain the ownership of rental properties. In addition, we
reviewed INS documents relating to Operation Safeguard as well as
receipts lodging providers maintained in the course of their rental
businesses.

       We conducted many interviews in connection with this
investigation. In total, the OIG interviewed more than 100 BPAs,
including agents who were detailed to the Tucson Sector, many of their
supervisors, and Border Patrol management officials. The OIG also
interviewed the INS’s Office of Internal Audit (OIA) agent who conducted
the INS’s original investigation into the allegations, as well as his
supervisors.

      In addition, we interviewed 14 lodging providers who provided
much of the lodging to the detailed Border Patrol agents in the Douglas
and Sierra Vista, Arizona areas.3 Due to the large number of lodging
providers, we submitted a questionnaire to 70 providers, representing a
sample of the remaining lodging providers who we did not interview. In
addition, the OIG identified and interviewed seven INS employees or
spouses of INS employees who provided lodging for detailed agents.

      We presented the results of our investigation, including the
potential violations of law, to the U.S. Attorney’s Office in Tucson and to
the Public Integrity Section of the Department of Justice’s Criminal
Division for prosecutive decisions. In most cases, they declined criminal
prosecution. However, the OIG continues to work with the Tucson U.S.
Attorney’s Office and the Internal Revenue Service on several allegations
that could lead to prosecution of INS employees for fraud, false
statements, or tax evasion violations.

       The OIG’s Office of General Counsel (OGC), in consultation with
INS’s Ethics Officer and the General Service Administration, prepared a
legal opinion regarding acceptance of the various incentives that the
lodging providers offered to renters. That memorandum is included as
Exhibit 2.

        During the two-year period we reviewed, it appeared that 114
travel voucher claims were erroneously overpaid, by a total of
approximately $16,000. Our review also revealed that there appeared to
be little oversight of the voucher approval process or questions raised
concerning the amounts claimed. We referred this issue to INS OIA for
consideration of an internal audit of that area. We also referred other
BPAs’ travel vouchers that were identified as indicating possible fraud to
INS OIA for follow-up and any corrective action.

3
    Sierra Vista is 51 miles northwest of Douglas. Both are located in Cochise County.


                                                      3
       The following sections describe the results of our investigation.
We first offer an overview of Operation Safeguard, its purpose and
implementation strategy, its proposed duration of activity, and the need
for increased detailing of agents to the Douglas area. We then describe
benefits provided by various lodging providers in the Douglas area to the
detailed Border Patrol agents. Next, we describe the issues concerning
the rental by supervisory Border Patrol agents to the detailed agents. We
then briefly discuss the allegations of retaliation against the
complainants who raised these complaints. Finally, we provide our
conclusions and recommendations.

III.   Background

       A. Operation Safeguard 99

      In October 1993, Silvestre Reyes, who was then the Chief of the El
Paso Border Patrol Sector, initiated Operation Hold the Line in the El
Paso Sector. This program deployed numerous Border Patrol personnel
along the border in an effort to significantly reduce illegal border
crossings in the area.

       Drawing on the El Paso initiative, in August 1994 the Attorney
General and then-INS Commissioner Doris Meissner agreed to establish
a border enforcement program called the National Border Strategy. This
was a multi-phase, multi-year enforcement strategy designed to secure
control along the southwest border. The strategy changed the Border
Patrol’s emphasis on apprehending illegal entrants to an emphasis on
preventing their crossing the border in the first place. As part of the new
strategy, the Border Patrol staged many agents in fixed positions along
the border. The Border Patrol also directed attention to the points of
entry into the United States, the primary staging areas, and the egress
away from the border once illegal entry was made. The strategy was
designed to shift crossings to remoter areas where it was harder to cross,
thereby deterring crossing in total.

      In October 1994, the San Diego Sector initiated Operation
Gatekeeper as part of the new strategy. In August 1997, Operation Rio
Grande was initiated in the McAllen Sector. In each of these operations,
the Border Patrol augmented the sector’s resources by detailing into the
sector agents and personnel from other areas.

     In January 1999, Operation “Safeguard 99” was established in the
Tucson Sector. Although originally formed in 1994 at a much smaller




                                     4
level,4 the operation was expanded in 1999 to strengthen Tucson Sector’s
enforcement operations.

      The Tucson Sector is composed of eight stations – Ajo, Casa
Grande, Douglas, Naco, Nogales, Sonoita, Tucson, and Willcox. The
sector extends across 261 miles of Arizona’s southern border, from the
eastern edge of Yuma County, Arizona to New Mexico. The Tucson
Sector separated its geographic area into three priority target quadrants
– Nogales, Douglas, and Ajo and the western desert.

      Based on the historically high volume of illegal crossers, Phase I of
Operation Safeguard 99 focused on the Nogales area. The INS formed
deterrence units, tactical interdiction units, tactical response units,
operation disruption units and immigration checkpoints along various
roadways leading from the border. The success of the INS’s strategy
involved (1) gaining control of the area, (2) maintaining control of the
area, and (3) expanding to other areas as the illegal flow of entry shifted.

       As noted above, this strategy was a resource-intensive effort,
requiring many additional Border Patrol personnel. Because Border
Patrol employees do not sign Mobility Agreements obligating them to
accept reassignments based on the needs of the Border Patrol,
management was unable to involuntarily transfer agents from other
sectors to the Tucson Sector. Instead, agents from other sectors were
detailed for temporary assignment, normally for 30 days, but in many
cases for much longer periods.

       When Operation Safeguard 99 commenced in the beginning of
1999, the Nogales Station had a permanent staff of 80 agents. A
significant number of personnel, equipment and resources were detailed
from the INS’s Western Region, primarily from the San Diego Sector, to
the Tucson Sector. The Resource Support section of Operation
Safeguard 99’s plan called for 125 INS employees to be detailed to the
Tucson Sector each month.

      As part of Operation Safeguard 99, the Western Region drew on the
San Diego Sector’s resources because that sector had gained and
maintained control of its area of operations. In May 1999, approximately
50 agents were detailed to the Nogales Station on a monthly basis. As
the operation expanded, additional resources were sent to that area.

4
 Between 1994 and 1999, enhanced enforcement operations in the INS San Diego and El Centro,
California Sectors caused illegal entrance patterns and smuggling operations to shift from southern
California into Arizona. As a result, Operation Safeguard 99 greatly expanded the scope of the INS
operations that Operation Safeguard had begun five years earlier.



                                                    5
      Toward the end of calendar year 1999, Tucson Sector management
believed that it had gained an acceptable amount of control within the
Nogales area. It therefore shifted its attention to the Naco/Douglas
corridor.




      In January 2000, the Tucson Sector began Phase II of Operation
Safeguard 99 at the Douglas Station. At the time, approximately 350
agents were permanently assigned to that station, due to an increase in
the hiring of BPAs. In addition, approximately 100 agents each month
were detailed to the Douglas Station.

      As the Tucson Sector determined that it had an acceptable degree
of control of Naco/Douglas corridor, Phase III was established in the Ajo
and western desert area, which encompasses 120 miles of the border.
This began in June 2001 and increased in the summer of 2002.

       Like other sectors’ operations in support of the INS’s National
Strategy, Operation Safeguard 99’s proposed duration was contingent
upon the Tucson Sector obtaining an acceptable degree of control of
illegal immigration within its sphere of operation. Therefore, its plan did
not set a timetable for its eventual termination, and Operation Safeguard
is continuing.




                                     6
      B. Selection of agents and handling of travel arrangements

       The Tucson Sector in concert with the Western Region determined
the number of personnel and amount of resources that were needed to
continue the operation. In the overwhelming majority of cases, the
Western Region required the San Diego Border Patrol Sector to identify
its personnel for detail to the Tucson Sector.

       The San Diego Sector, in agreement with the National Border
Patrol Council, formed “Detail Management Teams” (DMT) at its stations.
The DMTs, which included union officials, selected personnel from their
stations to be detailed to Tucson. The selection criteria included
seniority, entry of duty dates, previous details, and training. Some
agents told us that they “volunteered” for their otherwise mandated detail
to the Tucson Sector. There appeared to be little input from station
management about who was selected or the length of their detail.

       Normally, the agent’s detail to the Tucson Sector was for 30 days.
However, agents were often detailed from their permanent stations to the
Tucson Sector for longer periods of time, some for more than a year. In
fact, we found instances where agents moved out of their permanent
homes, placed their personal effects in storage, and purchased homes in
the Douglas area.

      The agents were normally given advance notice ranging from two
days to one month of their detail. The degree of preparation the agents
received prior to their detail varied. Some stations supplied an extensive
information packet to agents prior to departure, containing such
information as the names of hotels and apartments in the areas, a travel
order and voucher checklist for preparing a voucher using the INS’s
Travel Manager computer program, as well as other materials. Some
agents recall seeing pamphlets posted on their stations’ bulletin boards
advertising lodging that was available in the Douglas area. Other
stations simply informed the agents that they had to report to a
particular station in the Tucson Sector and left the logistics to those
agents.

       Most agents told us that they were left on their own to make
lodging arrangements. We found that agents who were on their first
detail to Douglas and were searching for housing often relied upon the
advice of other agents who had preceded them.

      In the beginning of the Douglas phase, the agents stayed primarily
at the Gadsden Hotel, the largest commercial provider in the Douglas
area. The Gadsden Hotel also offered a “meal voucher” program
(described below), which made it attractive to stay there. Over time,


                                    7
other commercial and private lodging facilities in the Douglas and Sierra
Vista areas began offering other programs as an incentive to attract
Border Patrol lodgers.

      Upon arrival at the Douglas Station, the agents were given an area
orientation briefing. Agents who we interviewed stated that some lodging
providers handed out flyers and other promotional materials to the
agents during their breaks. Those activities occurred outside the
building where the briefings were being held.

       With regard to the completing and processing of their travel
vouchers, the agents explained that other than the initial training they
received at the Border Patrol Academy, they did not receive any training
specific to the Operation Safeguard detail. Some agents, as required by
INS policy, completed their travel vouchers using the INS’s Travel
Manager database program, which was installed on some station’s
computer systems. When the program was not working or not installed
on the computer system, the agents gave their receipts and travel orders
to their station’s administrative clerk, who then completed the vouchers.

       Some Supervisory Border Patrol Agents (SBPA) accompanied
detailed agents from the San Diego and other sectors to the Tucson
Sector for the operation. Those SBPAs had direct supervision for the
detailed agents and wrote the detailed agents’ performance evaluations.
Field Operations Supervisors, who were permanently assigned to Tucson
Sector stations, had overall supervision for permanent and detailed
agents working in those stations.

       Aside from their normal duties, a detailed SBPA was given the
additional duty to review and approve travel vouchers for the detailed
agents. In some cases, an SBPA at an agent’s home station reviewed the
travel vouchers after the administrative staff had filled them out. We
were informed that, normally, the SBPA merely glanced through the
voucher and then signed it. At times, the SBPA had to review and
approve vouchers from an entire shift of detailed agents. The sheer
volume of vouchers being processed left little time for an in-depth review
of them. After the vouchers were approved, they were returned to the
agents, who in turn sent them to their permanent station or to the
Finance Center.

III.   Findings

      The OIG investigated allegations that Border Patrol agents who
were detailed to the Tucson Sector in support of Operation Safeguard
were obtaining various “kickbacks” as an incentive to stay at various
lodging facilities in the Douglas and Sierra Vista areas, and that the


                                    8
agents did not deduct a corresponding amount from their lodging or their
Meals and Incidental Expense (M&IE) claims when they filed their travel
vouchers. The incentives included cash, food vouchers, free meals, and
memberships to gyms. It was further alleged that SBPAs who were
assigned to the Douglas Station rented homes to subordinate agents.

       The OIG coordinated this investigation with the U.S. Attorney’s
Office in Tucson, Arizona. The OIG also received information and
assistance from the INS, the Office of Government Ethics, the Office of
Special Counsel, and the General Services Administration.

      A. Incentives offered by lodging providers to detailed agents

      During the time period we reviewed, the maximum daily rate was
$55 for lodging and $30 for M&IE for the Douglas and Sierra Vista area.
The following describes the lodging rates and the incentives offered by
various lodging providers to detailed Border Patrol agents in the Douglas
and Sierra Vista areas.

            1. Windemere Hotel

       A review of the travel vouchers identified 631 instances where a
Border Patrol agent stayed at this commercial hotel in Sierra Vista,
Arizona. An OIG interview of Kim Kaiser, the manager of the Windemere
Hotel, revealed that the hotel’s single room rate was $55 per day plus
tax. Kaiser noted that the hotel offered every guest a complimentary
breakfast buffet and beverages at a nightly happy hour. It also gave
extended-stay BPAs and other government employees a free membership
at a local health club. Kaiser equated those services to those offered at
the Embassy Suites Hotels.

       The OIG interviewed a sampling of 15 agents who rented at this
hotel. They advised us that they accepted the incentives that were
offered and did not reduce their claim for reimbursement. They said that
they paid the full per diem lodging rate and received receipts reflecting
their payments.

       The OIG OGC’s legal opinion, based on a review of General Services
Administration regulations, indicates that federal employees can accept
complimentary meals in this circumstance without that incentive
affecting their per diem. We therefore concluded that the BPAs who
stayed at this hotel could accept the breakfast buffet and happy hour
beverages without taking corresponding reductions in their claims for per
diem entitlements. It was also acceptable for the agents to use the gym,
as there was no extra charge imposed on the government by their doing



                                    9
so. This benefit falls in the category of a promotional benefit the
government could not use.

            2. Gadsden Hotel

       A review of the travel vouchers showed that 293 detailed Border
Patrol employees had 455 instances of lodging at this commercial hotel,
located in Douglas. An OIG interview of Robin Brekhus, the
owner/manager of the Gadsden Hotel, revealed that the hotel’s standard
single room rate was $55 per day plus tax. Brekhus offered that rate to
every lodger. Based on availability, Brekhus initially gave state and
federal employees an upgrade to a suite at no additional cost. With the
influx of lodgers to the Douglas area, Brekhus was unable to offer all the
government employees this upgrade.

       Brekhus discovered, however, that potential lodgers were staying
at other hotels in the area that offered a complimentary breakfast and
nightly happy hours. Consequently, to compete with those facilities,
Brekhus provided BPAs and other extended-stay lodgers a $15 per day
credit for use toward the purchase of meals in the Gadsden Hotel’s
restaurant. Brekhus advised that the $15 per day credit was available to
all government employees, senior citizens, tour groups, and movie
groups. Brekhus noted that the $15 was a credit, not cash, which was
applied toward the lodger’s restaurant bill, not toward the purchase of
other items in the hotel or towards reducing the daily room rate. A BPA
who did not eat meals in the hotel received no benefit from the credit.
Brekhus gave the BPAs a receipt reflecting that they paid $55 per day for
lodging.

       Based on an OIG subpoena, Brekhus released documents
concerning BPAs who rented at the hotel and the amount of money they
individually had credited to their restaurant bills. (Water damage in the
basement of the hotel where the records were stored prevented Brekhus
from providing information regarding 53 of the 455 instances.) A review
of the 402 records that were available detailed that the individuals spent
a total of $587,864.94 in lodging costs and that the hotel provided
$121,586.99 in restaurant credits.

      Our interviews of a sample of 22 agents who stayed at this hotel
revealed that they all paid the full per diem lodging rate, whether or not
they took advantage of the credit and ate their meals in the hotel, and
that they did not deduct from the reimbursement claims any credit for
meals.

      The OIG OGC’s legal opinion concluded that these meal credits
could be characterized in two ways. First, they could be considered the


                                     10
equivalent of a complimentary meal. As discussed above in connection
with the Windemere Hotel, the government regulations permit employees
to accept complimentary meals without requiring a reduction to their
M&IE allowance. Alternatively, the meal credits could be considered
promotional material. Under the regulations applicable at the time,5
employees were permitted to retain promotional materials if the
government could not use them, no future benefit was forfeited by their
acceptance, and they could not be redeemed for cash value. Because the
meal credits satisfied these criteria, the OGC concluded the agents were
entitled to retain the credits and no reduction to their M&IE was
required.

                 3. Mountain Vista Apartments and Supermarket
                 Coupons

      A review of the travel vouchers identified that 48 detailed
individuals had 206 instances of lodging at this apartment complex,
located in Sierra Vista, Arizona. An OIG interview of [DELETED] of the
Mountain Vista Apartments, revealed that she normally charged $1,050
per month ($35 per day) for a one-bedroom furnished apartment.
[DELETED] advised that she determined from her inquiries at the
Windemere Hotel that the facility offered guests a complimentary
breakfast and nightly happy hour. [DELETED] said that to remain
competitive with that hotel, she offered Fry’s Supermarket food coupons
as an incentive program to BPAs, to other government employees, and to
military personnel.

       [DELETED] charged the BPA’s credit card the maximum allowable
lodging rate of $55 per day. In turn, [DELETED] gave the BPAs up to
$10 per day ($300 for a 30-day stay) in Fry’s Supermarket food coupons.
The coupons were in $5, $10, $20 and $50 denominations. [DELETED]
paid the supermarket the face value for those coupons. The BPAs could
use those coupons, like cash, to purchase items at the supermarket.
Regardless of the face value of the coupons, the BPAs could obtain from
the supermarket a maximum of $4.99 in change. At the end of their
stay, [DELETED] gave the BPAs a receipt reflecting that they had paid
the full $55 per day for lodging.

       If [DELETED] had an adequate supply of apartments that she
could have rented to agents at $35 per day, by charging the agents $55
per day and giving some of them up to $10 per day in food coupons she
realized a $10 per day profit over the rate that she would have normally
charged renters.

5
 The rule was recently changed to allow government travelers to make personal use of promotional
benefits earned on official travel.


                                                  11
      Based on an OIG subpoena, [DELETED] released documents and
rental contract information to us. After reviewing those materials and
comparing them with travel vouchers that were submitted by BPAs, we
determined that 48 agents rented during the period under review. The
records conclusively identified that 33 agents received a total of $20,940
in food coupons. The average that the agents received was
approximately $400. The maximum received by any agent was $2,700
and the minimum was $80. [DELETED] had no information to indicate
that the remaining 15 agents received any food coupons. All agents
claimed the maximum lodging and M&IE entitlements on their travel
vouchers and they were reimbursed based on their claims.

      Our interviews of a sample of 6 agents who rented at this
apartment determined that they paid the full per diem lodging rate and
that they received a receipt reflecting their payments. They also used the
coupons to purchase food and other items at the supermarket. None of
the agents stated that they turned in any of the coupons to the
supermarket merely to get cash back.

       The OIG OGC’s legal opinion determined that unlike the meal
credit offered at the Gadsden Hotel, the supermarket coupons should not
be equated to a complimentary meal because their use was not limited to
the purchase of food items. Rather, the coupons had to be considered
promotional materials. Moreover, because the coupons were not tied to
any particular stay at the apartment complex or to any particular guest
and therefore theoretically could have been used by the INS to reduce the
cost of sending travelers to the area (since the agents could receive some
cash by using them), the OGC concluded they were not promotional
materials that could be retained under the regulations. Instead, the
agents should have turned them over to the INS.

      The OGC opinion noted, however, that the regulations governing
promotional materials assume that the employing agency has established
a procedure by which it will receive promotional materials from its
employees. 41 CFR, 301-53.1(b). We determined that the INS neither
provided the agents with any guidance about the use of the coupons nor
made known to them any such procedures. Accordingly, we fault the INS
management for failing to take control of the situation rather than the
individual agents who used the coupons.

       We also provided these facts to the U.S. Attorney’s Office in Tucson
for a prosecutive decision. Citing no evidence of criminal intent on the
part of either [DELETED], the apartment complex owners, or the agents
and a lack of training for the agents in preparing travel vouchers, the
U.S. Attorney’s Office declined criminal prosecutive interest in this
matter.


                                    12
                 4. Southern Arizona Realty Company

      A review of travel vouchers identified that 37 detailed agents rented
apartments or homes through this commercial real estate firm, located in
Douglas, Arizona. An OIG interview of [DELETED] of the Southern
Arizona Real Estate Company, revealed that he initially gave
presentations to detailed BPAs at the area orientation briefings.6 He
passed out advertising flyers and his business cards.

       [DELETED] stated that to compete with the $15 per day credit for
meals offered by the Gadsden Hotel he gave the BPAs a $15 per day
reduction toward their lodging. [DELETED] explained that the BPAs
effectively paid him only $40 per day, but that he gave them receipts
reflecting that they had paid him the full $55 per day for their lodging.

       During our investigation, [DELETED] became concerned about that
business practice and in mid-summer 2001 he discontinued giving a $15
per day rate reduction for lodging. At that point, similar to the incentive
offered at the Mountain Vista Apartments, [DELETED] began providing
up to a $10 per day reimbursement to BPAs through his purchase of
Safeway Supermarket food coupons. [DELETED] stated that under his
Safeway food coupon incentive program, the BPAs paid him the full $55
per day for lodging. In turn, [DELETED] gave the BPAs a receipt
reflecting that full payment.

      Through an OIG subpoena, [DELETED] provided documents
describing the BPAs who rented through his firm and the actual amount
of money that they paid for lodging.7 We identified that 37 agents paid
[DELETED] a total of $74,235, but that they collectively claimed a total of
$87,275 on their travel vouchers. Of those, 18 agents took advantage of
the $15 per day discount credit, and collectively they were reimbursed
$12,725 more than they actually paid [DELETED]. The maximum credit
that one agent received was $3,075 and the least that an agent received
was $150.

      Additionally, during our interview, [DELETED] advised us that he
gave a total of $3,585 in food coupons to eight renters. Based on the

6
  The Douglas Station conducted area orientation briefings for incoming detailed agents. The briefings
were initially held at the Gadsden Hotel, since large gatherings could be accommodated there. As the
number of detailers increased, however, the briefings were moved to the Army National Guard Armory
facility in Douglas.
7
  We determined, however, through reviews of [DELETED] records, examination of travel vouchers
submitted by agents who rented through him, and interviews of those agents that [DELETED] kept
incomplete records of his transactions with the renters.



                                                    13
information [DELETED] provided, we determined that the most that one
agent received was $1,080 and the least was $140. The remaining 11
renters received neither cash nor food coupons. All agents claimed the
maximum lodging and M&IE entitlements on their travel vouchers and
they were reimbursed based on their claims.

      Our interviews of 33 agents8 who rented through the Southern
Arizona Realty Company described that they paid that company the full
$55 per diem lodging rate. Sometime after they paid the full rate,
[DELETED] or his staff gave renters up to $15 per day in cash back as a
comparable incentive to that being offered at the Gadsden Hotel. The
agents also advised that [DELETED] discontinued giving cash back to
renters and instead offered the lodgers food coupons, which were
redeemable at a local supermarket. One agent returned the food
coupons believing that if she kept them she would have to deduct their
value from her M&IE entitlement.

       The OIG OGC’s legal opinion determined that the BPAs who
accepted the cash rebates from [DELETED] should not have claimed the
full lodging allowance of $55 per day on their travel vouchers. They were
entitled to be reimbursed only for the amount they actually paid for
lodging, in this case, $40 per day. The use of the food coupons was
deemed promotional items comparable to those offered at the Mountain
Vista Apartments discussed above.

      We provided these facts to the Tucson U.S. Attorney’s Office.
Again citing insufficient evidence of criminal intent on the part of the
agents and a lack of training for the agents in preparing travel vouchers,
the U.S. Attorney’s Office declined criminal prosecutive interest in this
matter. With regard to [DELETED], the U.S Attorney’s Office stated
because he was matching incentives offered by other hotels he could
argue that he was simply engaging in the practice of providing rebates to
customers. The U.S. Attorney’s Office declined prosecution against
[DELETED].

                 5. [DELETED]

      [DELETED] is a civilian who rented his four-bedroom home in
Douglas, Arizona to agents who were detailed to that area. He charged
each agent $55 per day for lodging. In turn, he offered the renters $8 per
day, in cash, as an incentive for their stay. [DELETED] explained that he
intended the money to cover the cost of breakfast, which he, unlike the
hotels, could not provide to the renters.

8
  We determined that four employees had resigned from the INS, and we did not interview them regarding
this matter.


                                                  14
      In response to an OIG subpoena, [DELETED] released copies of his
rental contracts. After reviewing those documents and comparing them
with travel vouchers submitted by BPAs, we determined that 27
individuals rented [DELETED] home during the period under review.
[DELETED] advised that one agent returned the money to him.
Additionally, three BPAs declined [DELETED] offer of cash but opted
instead to have [DELETED] stock the refrigerator with food. [DELETED]
paid a total of $4,768 in cash to 23 BPAs. The average payout was $224.

       Our interviews of 24 agents9 who rented [DELETED] house
determined that they paid him the full per diem lodging rate and they
received receipts reflecting their payments. Sometime after paying their
rent, [DELETED] placed up to $8 per day in cash, in stacks, in the
house. One stack of money was intended for each renter. Two agents
stated that they did not believe it was appropriate to accept the cash,
and they declined [DELETED] offer. The stated that instead, [DELETED]
stocked the refrigerator with food items prior to the agents’ arrival.
Another agent advised that he returned the cash because he did not
believe that it was appropriate to take the money. The agent asked a co-
worker, who was not staying at [DELETED] house, to witness that
transaction. The witness confirmed that the renter returned the money.

       Similar to the Southern Arizona Realty case discussed above, the
OIG OGC’s legal opinion was that the BPAs who accepted cash rebates
from [DELETED] should not have claimed the full lodging allowance of
$55 per day on their travel vouchers. Rather, they were required to claim
only what they actually paid, in this case $47 per day. The food items
that [DELETED] stocked in the refrigerator were deemed to be equivalent
to a complimentary meal, which the agents could accept without
reducing their claim for per diem reimbursement.

       Also reflecting similar reasoning as described in the case above,
however, attorneys in the U.S. Attorney’s Office declined criminal
prosecution in this matter. They cited no evidence of criminal intent on
the part of the agents and a lack of training for the agents in preparing
travel vouchers. They further noted that [DELETED], like [DELETED],
was matching incentives offered by the hotels. They stated that he could
argue therefore that he was simply engaging in the practice of providing
rebates to customers.

                6. Brewery Avenue Designs, Bisbee, Arizona


9
  We determined during our investigation that three agents who rented [DELETED] home had resigned
from the Border Patrol, and consequently they were not interviewed regarding this matter.


                                                 15
      We personally interviewed the manager of this lodging facility,
which offered apartments to renters. He stated that he charged the BPAs
the full per diem lodging rate and that he did not offer them any
incentives. We conducted a random sample of agents who rented from
this provider, and determined that they paid the full per diem lodging
rate and they did not receive any incentives.

            7. Gateway Studio Suites, Sierra Vista, Arizona

       We personally interviewed the manager of this hotel. She stated
that she charged the BPAs the full per diem lodging rate and that she did
not offer them any incentives. We conducted a random sample of agents
who rented from this provider and determined that they paid the full per
diem lodging rate and did not receive any incentives.

            8. Motel 6, Douglas, Arizona

       We personally interviewed the manager of this motel. She stated
that she charged the BPAs the full per diem lodging rate and that she did
not offer them any incentives. We conducted a random sample of agents
who rented from this provider and determined that they paid the full per
diem lodging rate and they did not receive any incentives.

            9. Valle Realty, Bisbee, Arizona

       We personally interviewed the owner/broker of this real estate
company. He said that he managed rental properties in the Douglas and
Bisbee areas and that he charged the BPAs the full per diem lodging rate.
He did not offer them any incentives. We conducted a random sample of
agents who rented from this provider and determined that they paid the
full per diem lodging rate and they did not receive any incentives.

            10. Personal Interviews of selected Lodging Providers

      We mailed a survey to 70 other lodging providers requesting their
assistance with this investigation. Based on the providers’ interaction
with detailed agents, we randomly selected 10 lodging providers for
personal interviews. During our interviews, we expanded on the
questions posed in our survey. The following is the list of providers who
we interviewed.

                              Provider

            Isabel Combel, 1502 8th Street, Douglas, Arizona
            Eli Properties, 1509 Mission Drive, Douglas, Arizona
            Carlos Fernandez, 2075 11th Street, Douglas, Arizona


                                    16
            George Haloulos, 4719 Territorial Loop, Sierra Vista, Arizona
            Esther Goff, 5077 E. Goldfinch Circle, Sierra Vista, Arizona
            Linda Marquez, 3622 Camino el Jardin, Sierra Vista, Arizona
                              Provider

            Rayna Nichols, 2335 11th Street, Douglas, Arizona
            Carmen Rodriguez, 2065 13th Street, Douglas, Arizona
            Rudy Sierra, 2514 E. 11th Street, Douglas, Arizona
            Lori Sanchez, 100 Golflinks Road, Douglas, Arizona

      The properties included apartments, homes, and trailers. We
determined from our interviews that all these providers charged each
agent $55 per day for lodging. Except for [DELTED], no provider offered
any incentives. [DELETED], a former assistant manager of the Mountain
Vista Apartments, estimated that she gave a total of $2,400 in food
coupons to the six agents who rented from her.

            11. Questionnaires and Surveys

       Due to the large number of lodging providers identified in our two-
year audit of agents who were temporarily detailed to Operation
Safeguard, we did not interview all of them. We supplemented our
interviews with a letter and survey questionnaire that was sent to 70
selected lodging providers. This sample was taken from the entire
lodging list we compiled, as broken down into groups represented by the
number of instances each rented to a detailed agent. The number of
letters sent to the providers in each group was proportional to the
amount of business they did with the agents. The questionnaire asked
them to identify, among other things, their lodging rates and any special
incentives that they offered their renters.

       The majority responded that they charged the maximum lodging
per diem rate and did not offer any incentives. Fourteen establishments
offered a complimentary breakfast and nightly happy hours. Seventeen
others offered food coupons or meals in their restaurants. Our review
determined that these lodging providers gave $61,283 in food coupons to
BPAs who rented at their locations.

            Provider                                    Amenity

      AmeriSuites, Tucson                               None
      Angius Hideaways                                  None
      AV Properties                                     Cash rebate
      Arizona Copper Hills Realty                       Food coupons
      Ajo Realty                                        Food coupons
      Baymont Inn and Suites                            None


                                    17
        Best Western Imperial Valley                                           Food coupons
        Best Western Plaza Inn                                                 None
        Best Western Mission Inn                                               Free breakfast
              Provider                                                         Amenity

        Bisbee Inn                                                             None
        Bisbee Rentals                                                         Food coupons
        Bisbee Realty                                                          Food coupons
        Brewery Avenue Designs                                                 None
        Brunners Inn                                                           None
        Canyon Rose Suites                                                     Free breakfast
        Carroll Drive Apartments                                               None
        Casa Grande Suite                                                      None
        Comfort Inn                                                            Free breakfast
        Cooper Crown Realty                                                    Food coupons
        Days Inn, Nogales                                                      Free breakfast
        Days Inn, Willcox                                                      None
        Del Sur Enterprises                                                    None
        Desert Jewel Apartments                                                None
        Dixie’s Desert Realty                                                  Food coupons
        Eli Property Management                                                None
        El Rancho Motel, Bisbee                                                Meals
        El Rancho Motel                                                        Meals
        Embassy Suites, Tucson Airport                                         Free breakfast
        Embassy Suites, Tucson                                                 Free breakfast
        Evan’s Apartments                                                      Food coupons
        Executive Apartments                                                   (closed)10
        Francisco Grande Resort                                                Meals
        Garden Plaza Apartments                                                Laundry service
        Gateway Studio Suites                                                  Free breakfast
        Geronimo Trails Apartments                                             None
        Green Valley Lodge                                                     None
        Howard’s Guest House                                                   Food coupons
        La Quinta Inn, Tucson                                                  None
        La Siesta Motel, Ajo                                                   Meals
        Long Realty, Bisbee                                                    None
        Long Realty, Sierra Vista                                              None
        Marine Hotel, Ajo                                                      None
        Montego Bay Apartments                                                 None
        Motel 6, Douglas                                                       None
        Mountain Steppes Apartments                                            None
        Muckers Hideaways                                                      None
        Oasis Apartments                                                       None

10
  We identified and interviewed the one agent who rented at this location. The agent advised that he was
not offered nor did he receive any incentives.


                                                   18
        OK Property Management                                                None
        Park View Apartments                                                  None
        Rancho La Perilla I                                                   None
              Provider                                                        Amenity

        Rancho La Perilla II                                                  None
        Ranchito Apartments                                                   None
        Realty Executive, Yuma                                                None
        Residence Inn                                                         Free breakfast
        Ruben Nogales Rental                                                  Food coupons
        S. Redemer Rentals                                                    None
        RM Properties                                                         Food coupons
        San Jose Lodge                                                        Meals
        Schomac Property Management                                           Laundry service
        Sierra Suites, Sierra Vista                                           Meals
        Sun Canyon Inn                                                        Free breakfast
        Super 8 Motel, Gila Bend                                              None
        Super 8 Motel, Nogales                                                Free breakfast
        Super 8 Motel, Sierra Vista                                           Free breakfast
        Thunder Mountain Inn                                                  Free breakfast
        Valle Realty                                                          None
        Valley Lodge                                                          Meals
        Viscount Suites                                                       Free breakfast
        Walker House                                                          None
        Wellesley Inn and Suites                                              Free breakfast

        B. Supervisory BPAs renting to detailed agents

      We also investigated the allegations that SBPAs, who had direct
supervisory authority over detailed agents, rented out rooms in their
homes or bought properties in the Douglas and Sierra Vista area to rent
to those agents.

       Our investigation found that with the exception of one agent who
worked on one of the SBPA’s shift for one month, none of the SBPAs had
any direct supervisory responsibilities for any of the other BPAs who
rented their properties.11 We also found no evidence that the SBPAs
selected or played any role in the selection of the BPAs who were detailed
to the Douglas Station or in determining the length of their temporary
assignments.



11
  Technically, since the SBPA is a GS-12 grade position, a SBPA could theoretically have authority over
agents who were at the GS-11 or lower grade levels. However, we found no evidence that the SBPAs
directed their renters’ activities in this case.


                                                   19
      The OIG OGC provided a legal opinion regarding SBPAs or their
wives renting to agents, which is detailed below (See Attachment 3).
Additionally, the Tucson U.S. Attorney’s Office declined criminal
prosecutive interest.

            1. SBPA rented a room in primary residence

      Our investigation identified that on separate occasions, one
Douglas SBPA rented a bedroom in his primary residence to two BPAs
while they were detailed to the Douglas Station. In a sworn affidavit, the
SBPA admitted that he gave those BPAs receipts falsely reflecting that
they had paid him the $55 per day maximum lodging rate.

       In a sworn affidavit, one of these BPAs admitted to paying the
SBPA about one-half the amount that was noted on his receipts. The
BPA then filed those false receipts with his travel vouchers and was
reimbursed the full entitlement based on his claim. The U.S. Attorney’s
Office declined prosecution in this matter. We referred this matter to INS
OIA for consideration of appropriate disciplinary action.

       In a sworn affidavit, the second BPA maintained that he paid the
SBPA the full $55 per day and received a receipt from him reflecting that
rate. The BPA then filed his travel voucher and was reimbursed based
on that receipt. The BPA’s conduct in this case and his rental at the
[DELETED] residence (detailed above) were further reviewed in a separate
OIG investigation. Those matters were referred to the Tucson U.S.
Attorney’s Office and are pending consideration of criminal prosecution
of the agents for providing false statements under oath.

      Finally, the OIG OGC’s legal opinion determined that when a
government employee rents a room in a private home, the government
regulations treat this arrangement as nonconventional lodging. The
regulations provide that employees who stay in nonconventional lodging
may be reimbursed only for the actual costs the host incurs
accommodating them. Moreover, the renting employee must be able to
substantiate those costs to the agency, which then must determine if
those costs are reasonable before reimbursing the employee.
      .
      Accordingly, the BPAs who rented rooms in the homes of other
Border Patrol employees could have legitimately claimed lodging
reimbursement only to the extent that they could show that their hosts
incurred additional expense by putting them up and that this expense
was reasonable. Absent such evidence, no lodging reimbursement was
appropriate.

            2. SBPAs’ rental of income properties


                                    20
      We also determined that two Douglas Station SBPAs and their
wives purchased rental income properties in the Sierra Vista and
Douglas areas after the start of Operation Safeguard, and rented the
properties to detailed agents.
      The SBPAs voluntarily released copies of their rental contracts to
us. After reviewing those documents and comparing them with the travel
vouchers submitted, we identified 4 agents who had 13 rental instances
at one SBPA’s property. We found that in 2000 the SBPA and his wife
received $8,745 in rental income and in 2001 they received $28,545 in
rental income.

       We identified 6 agents who had 10 rental instances at the other
SBPA’s property. We found that in 2001 the SBPA and his wife received
$15,000 in rental income. Both SBPAs voluntarily released copies of
their income tax returns to the OIG. We found that they had claimed the
income that they received from the rental properties on their income tax
returns.

      Our interviews of the agents who rented from the SBPAs revealed
that the renters conducted all their business transactions with the
SBPAs’ wives. The renters claimed they paid the full per diem lodging
rate and they received receipts reflecting their payments. They stated
that they did not receive any lodging incentives.

       The OIG OGC’s legal opinion concluded that this arrangement
was permissible because the wives rented income properties rather than
rooms in a primary residence. Accordingly, the wives could charge a
market rate and the government would reimburse the renters up to the
maximum allowed lodging per diem rate.

            3. Other cases

       We identified 7 other SBPAs who, in some case with their wives,
rented properties to detailed agents. We determined that three of those
INS employees had engaged in suspected fraudulent activities when they
rented out properties in the Douglas and Sierra Vista areas. The
activities included renting an apartment and then sub-leasing it to
detailed agents at a reduced lodging rate but providing the renters with
receipts falsely reflecting that they paid the full lodging rate.

       Additionally, we discovered that while on detail to Douglas, one
BPA purchased a home in Sierra Vista but provided suspect receipts to
support his travel voucher claim that he was renting that property from a
real estate management firm. Based on those agents’ potential violations
of federal criminal statutes, we have initiated separate investigations


                                   21
regarding their conduct. Those investigations are currently being
coordinated with the Tucson U.S. Attorney’s Office.



V.    INS’s Processing of Travel Vouchers

      Our investigation focused on cash kickbacks and amenities offered
by lodging providers in the Douglas and Sierra Vista areas. However,
OIG auditors that reviewed the travel vouchers identified errors on
numerous vouchers, resulting in $17,362.15 in overpayments and
$931.48 in underpayments by the INS. These errors included agents
claiming lodging costs twice for the same day, claiming to have paid a
higher lodging rate than that reflected on the receipt, and claiming a
higher M&IE rate than the maximum for the lodging area. These errors
were not detected by the INS reviewing supervisors or by the INS Finance
Center in Dallas, Texas.

       We referred these errors to INS OIA for review and determination if
systemic weaknesses existed at the INS Finance Center, Dallas, Texas.
The OIG recommended to the INS OIA that it review the travel voucher
approval process and the Dallas Finance Center, Travel Section. INS OIA
referred the matter on August 7, 2002 to Judy Harrison, the INS
Assistant Commissioner for Financial Management.

       On December 12, 2002 INS OIA provided Assistant Commissioner
Harrison’s response to the OIG recommendation. She advised that the
Dallas Finance Center had identified the errors in April 2001 and
corrective measures were taken by informing travel payment staff that
applicable per diem rates are based on the ordered point of travel and the
lodging location at that time. Additionally, she said that the office that
prepared the travel authorizations was contacted, and the requirements
of the Federal Travel Regulation (FTR) were discussed with that office in
detail. Her response documented further measures that the INS was
taking to address the deficiencies, to include additional training for INS
staff conducted by the General Services Administration on the FTR
requirements, and the implementation on October 1, 2002 of the INS’s
new Federal Financial Management System. Her response also asserted
that the errors identified by the OIG represented an immaterial amount
of money and the time required to further analyze those computations
would not be cost effective to seek reimbursement for overpayments (See
Exhibit 4).

      In addition, in conjunction with our audit of travel vouchers
mentioned above, we identified 21 questionable instances of BPAs
sharing the same lodging location (such as a husband and wife renting


                                    22
the same place at the same time), potential double billing, filing
unsupported claims, and receiving overpayments for lodging. We
investigated those matters and determined that 16 instances were
unsubstantiated. The remaining five potential irregularities were
evaluated and referred to INS OIA for administrative inquiries. We have
asked INS OIA report their findings and any follow-up actions to the OIG.
Two of these complaints has been reported to the OIG as
unsubstantiated, and the other three are still pending.

VI. Alleged Retaliation Against INS Complainants

       A. INS OIA Special Agent and Douglas APAIC

       As noted above, the two complainants in this case also made
allegations about their treatment after they brought forward their
complaints to the INS. They alleged that the INS OIA agent who initially
was assigned to investigate their allegations and the Douglas Assistant
Patrol Agent in Charge (APAIC) compromised their identities and status
as the complainants during this investigation by informing the subjects
of the investigation that the complainants had made allegations against
them. The complainants also claimed that the INS OIA agent threatened
them and refused to investigate the matters that they presented to him.12

       Our investigation revealed that during the INS OIA investigation,
Notices to Appear (NTA) were distributed to the two complainants and to
other individuals who the INS OIA agent intended to interview. Once
those individuals received their NTAs, they were able to tell others about
their status and the INS OIA investigation. However, we did not find that
the INS OIA agent or the Douglas APAIC disclosed the complainants’
identities to the subjects of the investigations.

       We also reviewed the complainants’ claims that the INS OIA agent
threatened them during their interviews. The INS OIA agent interviewed
the two complainants and the other agents on their scheduled dates and
times, and tape-recorded all of those interviews. We conducted a
comparative analysis of the transcriptions with the audiotapes of those
interviews. We determined that the recorder was not turned off during
those interviews and that no threatening or harassing comments were
detected from the tape or contained in the transcriptions. We did not
find sufficient evidence to substantiate the claim that the INS OIA agent
threatened the complainants.


12
  In June 2001, the two complainants who provided the initial allegations as well as
three other Douglas BPAs filed a federal lawsuit in the U.S. District Court, Tucson,
Arizona alleging age and unlawful discrimination in employment.


                                           23
      B. Complainants’ training and promotion opportunities

      The two complainants further alleged that the Douglas APAIC and
other Douglas SBPAs harassed them by denying one of them a training
assignment and the other a promotion opportunity and a training
request.

       With regard to the complaint about the training assignment, the
complaining agent elected not to take the required downgrade from a GS-
12 supervisory position to a GS-11 to become eligible for the training
position at the Border Patrol Academy. Accordingly, he was not selected
for an assignment to the training academy.

        We also found that the other complainant, who was a Senior
Patrol Agent (SPA), was not selected for a temporary promotion position
to a SBPA because he was not assigned to the unit that had the
promotion vacancy. Only agents who were assigned to units that had
vacancies were eligible to fill those positions. With regard to his training
request, he did not follow established procedures for requesting training.
In addition, when he did submit the requested information, he provided a
false date of rank, thereby increasing his apparent seniority. Since
seniority is a determining factor in selecting individuals for training, the
complainant’s misleading information caused him to be ineligible for
consideration.

      In sum, our investigation did not substantiate the allegations that
the complainants were denied promotions or training because of their
complaints.

VII. INS’s Corrective Actions

      On December 7, 2001, John P. Chase, the INS OIA Director,
submitted a Procedural Reform Recommendation entitled “Lodging
During Detail Assignments,” to George H. Bohlinger III, Executive
Associate Commissioner for Management and Michael A. Pearson,
Executive Associate Commissioner for Field Operations, 2001 (See
Exhibit 5). Chase’s memorandum pointed out various lodging issues and
concerns that the OIG identified as occurring during Operation
Safeguard. Chase also discussed the contents of this memorandum with
the Chief and the Deputy Chief of the Border Patrol, as well as the
Border Patrol Sector management in Tucson.

       Subsequent to Chase’s actions, Judy Harrison, the INS Assistant
Commissioner for Financial Management, transmitted a memorandum in
April 2002 to all INS employees concerning their lodging during
temporary assignments (See Exhibit 6). The memorandum referred to


                                     24
the Federal Travel Regulations and discussed the regulations concerning
the types of accommodations, staying with friends or relatives, obtaining
proper and correct receipts for lodging amounts, and receiving vouchers
or credits from commercial lodging facilities.

      Additionally, beginning in April 2002, the Tucson Border Patrol
Sector began briefing all incoming detailed agents about rental and
housing issues (See Exhibit 7). Tucson Sector officials began advising
the agents about the regulations regarding submitting proper receipts for
lodging. The Sector also instituted a practice of attaching Assistant
Commissioner Harrison’s April 2002 memorandum to all travel
authorization forms for all employees who are being detailed.

      In April 2002, William Veal, the Chief of the San Diego Border
Patrol Sector, issued a memorandum to all Sector employees that
addresses various questions relating to lodging at commercial and
private lodging establishments. It provides overall guidance and details
ethical and professional standards associated with filing travel vouchers
(See Exhibit 8.)

       In September 2002, then INS Commissioner James W. Ziglar
issued a memorandum to all employees, entitled “Claiming Expenses for
Official Travel.” The memorandum advised employees of misconduct
issues regarding the submission of travel vouchers and provided
additional guidance for any travel related questions (See Exhibit 9.)

VIII. OIG’s Conclusions and Recommendations

       In this review, the OIG probed allegations related to fraud and
other irregularities in connection with reimbursement for lodging on
travel vouchers submitted by INS employees who were temporarily
detailed to the Tucson Sector in support of Operation Safeguard. We
reviewed more than 3000 vouchers and conducted many interviews of
INS employees and lodging providers. During our review, we identified
many instances of false and improper claims by INS agents as well as
systemic weaknesses in the voucher approval process, including the
process employed by the travel office of the Dallas, Texas Finance Center.

       Our investigation found that when Operation Safeguard was
initiated, INS management failed to plan adequately for the enormous
lodging requirements to support detailed employees. The INS did not
provide to detailed agents adequate guidance related to temporary
assignments in support of Operation Safeguard until after these
allegations surfaced.




                                    25
       Moreover, the INS never attempted to negotiate a lodging rate at
local hotels for those individuals at a lower cost to the government. We
believe the INS could have saved hundreds of thousands of dollars had it
negotiated reduced lodging rates for the detailed BPAs and comparably
reduced the agents’ per diem entitlements. For example, the Mountain
Vista Apartments raised its rental rate from $35 per night to $55 per
night (the maximum lodging rate) and then offered a $10 per day food
coupon. The effect was to raise the cost to the INS by $20 per night,
although Mountain Vista increased its profits by $10 per night. We
believe these examples indicate that the INS could have negotiated
reduced rates for detailed INS employees, saving significant sums for the
INS in travel costs.

      We also determined that many INS employees received reductions
or cash back to rent at certain lodging facilities.13 In response to these
rebates, some INS employees returned or refused to accept the cash
kickbacks, but they were in the minority. During our interviews,
however, many INS agents and lodging providers attempted to justify this
practice as being equivalent to offering or accepting free meals or food
coupons. We believe that such a justification is not remotely persuasive.

      Because the U. S. Attorney’s office has declined criminal
prosecution on most cases, we are referring those matters to the INS for
appropriate administrative action. We believe that the INS should
examine each of these cases and make a decision as to whether the
employee should be held accountable for their actions. At a minimum,
we believe that employees who accepted cash kickbacks from lodging
providers and claimed the full allowable amount for lodging and M&IE
should be required to reimburse the government this amount.
Employees who falsified their vouchers in support of their claims should
be appropriately disciplined.

       We are still investigating a few criminal cases, which will remain
open until judicial proceedings are complete. The activities include
agents renting an apartment and then sub-leasing it to detailed agents at
a reduced lodging rate but providing the renters with receipts falsely
reflecting that they paid the full lodging rate. Additionally, one BPA
purchased a home in Sierra Vista but provided suspect receipts to
support his travel voucher claim that he was renting that property from a
real estate management firm. Based on those individuals’ potential
violations of federal criminal statutes, we have initiated separate
investigations regarding their conduct.


13
  One lodging provider, during a surreptitious telephone call, openly offered a cash kickback and false
receipt to an OIG agent posing as a Border Patrol detailee.


                                                    26
       We also believe that this review provides lessons for future INS
operations that involve extensive details of agents. In our review, we
found that lodging for detailed agents was available below the per diem
rate, as evidenced by the amenities offered to many agents, including
cash rebates. When the INS embarks on similar large-scale operations
such as Operation Safeguard, we believe it should consider the
availability of lodging accommodations in the area and seek to negotiate
a reduced rate for lodging. 14 The INS should also consider entering into
direct arrangements with lodging providers to house detailed agents.

      The OIG has recently completed a related investigation of the
Border Patrol in Charleston, South Carolina, involving similar allegations
as to BPAs who were temporarily detailed to the Border Patrol Training
Academy. The OIG’s report recommended that INS management
consider the implementation of a policy similar to that used by the
Federal Law Enforcement Training Center (FLETC) in Brunswick,
Georgia, which requires that trainees stay at lodging facilities under
contract with FLETC, unless those accommodations are unavailable.
The OIG believes that INS management should apply this same policy to
long-term details requiring large personnel support such as Operation
Safeguard.

      The OIG has been advised that INS OIA has recently initiated
discussions with INS management and the Border Patrol to consider the
creation of a position for housing management that would oversee
housing at the training academies and locations with long term detail
assignments

       We also recommend that the INS provide more guidance to its
employees who are detailed regarding the Federal Travel Regulations and
temporary details. Most of the agents who we interviewed informed us
that they received little or no training in properly preparing travel
vouchers other than what they had received during their initial training
at the Border Patrol Academy. All advised that they received no training
specifically regarding extended-stay travel as it related to their detail to
Operation Safeguard. The INS should also train supervisors and other
officials who review and approve travel authorizations and vouchers,

14
   This would be consistent with Department policy regarding extended travel. In a
memorandum issued in September 1998, Former Assistant Attorney General for
Administration Stephen R. Colgate advised that "when a travel assignment is expected
to last more than 30 days and where it is possible to secure lodging and meals at less
than the maximum allowable by travel regulations, total per diem, consisting of lodging
plus the M&IE allowance, should be reduced . . . ." The memorandum also states that
when the assignment is expected to exceed 90 days, such a reduction is mandatory.
See Revised Policy Guidelines for Authorizing And Administering Extended Travel
Assignments (Exhibit 10).


                                          27
support staff who prepare travel authorizations, and the Dallas Finance
Center auditors in the respective oversight responsibilities regarding
travel vouchers. In addition, the INS should conduct training of all
employees in their use of its automated Travel Management Program.

       The guidance should discuss in clear and unequivocal terms how
to treat promotional items, including complimentary meals, credits for
meals, and cash reimbursements. The memoranda distributed by INS
after the onset of this investigation are useful, but they should be
supplemented by comprehensive guidance that is made available to all
INS employees when they are detailed. Moreover, we recommend that
INS develop a process for handling promotional items from employees
that the employees obtain through the course of their official duties.

       We also believe that the INS should strengthen its practices for
filing and reviewing travel vouchers. We found that the review process at
each level was lacking. The Dallas Finance Center needs to ensure its
financial examination procedures correct the various problems in this
area, including paying claims for double lodging costs for the same day,
paying claims for lodging costs even when the claimed amount exceeds
the authorized rate for a particular area, and paying claims for a higher
rate than what was itemized on submitted receipts.

      In sum, this investigation found troubling practices on the part of
the INS and many of its agents regarding lodging reimbursement. We
believe that the INS should take strong and immediate action to prevent
these types of practices from recurring.




                                    28
                         List of Exhibits


1. OIG letter to INS OIA, November 20, 2001, requesting INS furnish
   copies of agents’ travel vouchers.

2. OIG OGC’s legal opinion, May 28, 2002, relating to acceptance of
   amenities.

3. OIG OGC’s legal opinion, November 26, 2002, regarding SBPAs
   renting to detailed agents.

4. INS response, December 12, 2002, processing of travel vouchers.

5. INS OIA Procedural Reform Recommendations, December 12,
   2001.

6. INS Assistant Commissioner for Financial Management memo,
   April 2002.

7. Tucson Sector Chief Patrol Agent David Aguilar’s memo, April 25,
   2002, relating to Local Actions taken on Allegations.

8. San Diego Sector Chief Patrol Agent William Veal’s memo, April 24,
   2002, regarding Ethical Issues Involving Travel Vouchers.

9. INS Commissioner Ziglar’s memorandum dated September 5,
   2002, Subject “Claiming Expenses for Official Travel.”

10. Assistant Attorney General for Administration Stephen Colgate’s
   memo, September 1, 1998, regarding Policy Guidelines for
   Extended Travel Assignments.




                                29
                                                       Office of the Inspector
                                                                             General




             November 20,2001

             MEMORANDUM FOR JOHN R. CHASE
                            DIRECTOR, OFFICE OF INTERNAL AUDIT
                            IMMIGRATION AND NATURALIZATION SERVICE

                                   A                   -,l..
            FROM:
                                               INSPECTOR GENERAL
                                       FOR INVESTIGATIONS

            SUBJECT:               REQUEST FOR RECORDS


                  The Office of the Inspector General, Tucson Field Office, is currently
            conducting a comprehensive review of allegations reported to the OIG
            concerning possible voucher irregularities by Border Patrol Agents detailed to
            Operation Safeguard at Douglas, Arizona. Our investigation will focus on fiscal
            years ~~   CiDd2.e&t.

                   The INS, Western Region, has identified and furnished the OIG with a list
            of names of Border Patrol Agents assigned during this time period. We have
            also been advised that the travel vouchers submitted by the agents are located
            at the finance center in Dallas, Texas. In order to sufficiently determine the
            scope of the issues involved it is necessary that a copy of these vouchers be
            obtained an analyzed.

                I am therefore requesting that INS furnish a copy of these vouchers and
        all related receipts to the Office of the Inspector General. As you are aware,
        this case is the subject of congressional scrutiny, therefore it is requested that
        INS complete this request within thirty days of receiving this request.

              Your cooperation and assistance is appreciated. If there are questions
        your staff may contact SAC Roger M. Williams, DIG Operations or ASAC
        Jospeh Cuffari, Tucson Field office.




?
AssrSTANT
             ~'w
                   08:31      "0'602       870   52-18                   lJUJ   Ul~   lUI.;~UN~""          .lNV   n~       ]"
                                                 I g... '"v"   L-VUJ.                                                                  Ie,)Uu.:,' uu,


                                           -
                                                                                             .JUIV    ..!VU..!     ~ .~~        i.UL
                                       8                                u.s. Department          of stice

                                                                        Office of t.~eInspector General


      "-
                                                                        JlGsJiil!:ICI..
                                                                                    D.C 2OJ;o




             May 28, 2002
             OGC-O2-004



                                                                        2~
             MEMORANDUM                FOR THOMAS J. BONDURANT
                                                 ASSISTANT INSPECTOR GENERAL
                                                   FOR INVES GAT ONS
                                                 -::::-
                                                     'J/
            FROM:                           $ARDL..SRI MCf1-
                                                 GENERAL COUNSEL

            SUBJECT;                             Legal Opinion Regarding Amenities Offered
                                                 By Lod2in2 Providers to Border Patrol A~ents


                    You have requested a legal opinion regarding whether it was
             appropriate for Border Patrol Agents (BPAs) to accept various amenities
     '-'     offered by lodging providers while on extended travel away from their
             home duty stations in the Douglas, Arizona area. As \V'eunderstand it,
            tl1e BPAs at issue traveled under the lodging-plus per diem system. This
            means their daily per diem rate was calculated "on the basis of the acroal
            amount the traveler pays for lodging. plus an allowance for meals and
            incidental expenses (M&IE). the total of which does not exceed the
            applicable maximum per diem rate for the location concerned."
           41 C.F.R. § 300-3.1. Under this method. the traveler collects the full
            M&lE rate regardless of actual expenses.l If the traveler spends more'
           than the mmmum authorized amount he bears that cost. If he spends
           less, he may keep the difference.

                  The reimbursement claims at issue here were for $55.00 per day
           for lodging (the maximum rate allowed) as well as the full M&IE rate.
           The amenities accepted differed in type from complimentary meals, to
           credits and vouchers which could be used toward the cost of meals or
           groceries, to cash payments intended to cover the cost of meals or
           groceries. You inquire whether the BPAs who accepted these amenities


                   1 ActUal e:x:pense reim burscment is pro,,-ided for under                    certain circumatances
           not applicable here. ~    41 C.F.R. § 301.11..300.




~/O5/02
              I u';      \1.,:    oJ':
                 --~.        '"          -aQu,:   OIU   ;>':'10
                                                        I W"'.~,",L,"",   vv..
                                                                                                     r- .'-'oJ   ~ UUJ/UU.,
                                             8,-


       ~


                     There is a general prohibition on federal employees accepting gifts
             given because of their official position. ~ generally 5 C.F.R. §       .
             2635.201-205. HoweverJ discounts and benefits offered to a broad class,
             including a broad class of government employees arc excluded fram tile
             definition of gift. lQ. at § 2635.203(b}(4).

                    As we understand it, all of the amenities at issue \vere offered
             either to all guests or to all long-term guests of the involved
             establishments. AccordinglYJ the gift prohibition is not Unplicated in
             these cases.



                    One of the hotels at which the SPAs stayed charged the full $55
             lodging rate but offered a free breakfast and happy hour to its guests.
            Regulations promulgated by the General Services Admirlistrarion (GSA}
             specifically address the question of complimentary meals provided by a
            hotel! motel. The GSA regulations are written in question and answer
   "        fom1at. The applicable provision states:

                        If my agency authorizes per diem reimbUrsement, will it
                        reduce my M&IE allowance for a mea1(s) provided by a
                        common carrier or for a complimentary meaI(s) provided by a
                        hotel/motel? No. A meal provided by a common carrier or a.
                        complimentary meal provided by a hotel/motel does not
                        affect your per diem.

           41 C.F.R. 301-11.17.2 Accordingly, the BPAs who stayed at this hotel
           were free to accept the complimentary breakfast and happy hour without
           taking any reductions in the per diem rate.




                 2 A memorandum a-omtile Finance Staff of the Justice Management Division to
           employees of the Offices Boards and Divisions of the Department provides consistent
           advice: -Must a.deducbon be made for meals on aj:rcraIt or complimenta y breakfasts
           ~t hotels? No COlnDIimentary meals provided to the traveler bY hotels or meals providcd
           while on common carriers do not require reductions 1n MGI~.-


                                                                                 2


"--'
        06/05,'02 VU-"   08:32    '5'602
                                           8 870 I52.16
                                                   ~"""'""""   \.I.a.                                    I. 'J.., '.4]OO.J/OO8

                                                                                   --

                  III.     Credit Toward Meals Eaten at Hotel
 "-'                      One hotel frequented by BPAs provided a credit of $15 per day to
                  be offset agajnst money spent on meals eaten at the hotel. For example,
                  if a BPA spent $20 dollars per day on hotel meals over a 30 day period
                  for a total of $600, the hotel would subtract $450 ($15 x 30 days) from
                  his or her bill at the end of the month. Thi~ credit was applicable only to
                  that portion of the bill spent on meals, did not result in any cash
                  payments to BPAs, was not credited toward the lodging portion of the:
                  bill, and was applicable only to meals eaten during the current stay. A
                  BPA who did not eat his or her meals in the hotel got no benefit from the
                  credit.

                           At the time the credits at issue were given, the GSA regu1a.tions
                  provided as follows:

                          What must I do with promotional benefits or materials I
                          receive from a travel service provider?      Any promotion2.l
                          benefits or material you receive from a private source in
                          connection with official travel are considered property of the
                          Goverrunent. You must: (a) Accept the benefits or material
                          on behalf of the Federal Government; and (b)' TuIn the
                          benefits or material over to your agency in accordance with
 ',--                     your agency's procedures established under 41 C.F.R. 101-
                           25.103.

                   41 C.F.R. 301-53.1.3

                          Is there any instance when I may make personal use of
                          benefits furnished by a travel serVice provider? Yes, you may
                          use benefits (e.g., free meals, check-cashing privileges, or
                          memberships in executive clubs) only if: (a) the: Govemment
                          can not use the benefit;_(b) to receive the immediate benefit,
                          you do not forfeit a futUre benefit tlle Government could use;
                          and (c) the benefit can not be redeemed for cash value.

                  41 C.F.R. § 301-53-10.




                        3 The rule. was recently ch3l1ged to allow government travelers to make
                 personal use of promotional benefits earned on officia1 travel. The change in the rule
                 does not affect the matt=rs at issue here becaus~ it applie.s ocly to promotional benefits
"-'              used after December 28, 2001, the effe.ctive date of the change.


                                                                        3
            06/05/0_2_-   !!_8:: 33   ~602   .
                                             670   .51~6            DOJ 01 G 1'U(';s.U~.   ...IN'

                                                                                           '-'
                                                                                                    Ii"     ~UU5/UUI$




                           There are two possible ways of viewing the meal credit. both of
           "-        which would permit the employee to use the credit without reducing his
                     or her meal allowance.4 First, it could be categorized as the equivalent of
                    a complimentary meal the acceptance of which, as discussed above,
                    does not require a reduction in per diem. Second, it could be categorized
                    as promotional material. Because it meets the standards set forth in §
                    301-53-10 -the government could not use the credit, no future benefit
                    was forfeited, and it could not be redeemed for cash value -it falls into
                    the category of promotional materials an emplo}'ee may accept.
                    Accordingly, we believe that the BPAs were free to eat meals in the hotel
                    and apply the credit to the cost of those meals witilout reducing their per
                    diem rate.

                    IV.     Supermarket CoUBons

                          Some of tbe BPAs rented units in an apartment complex for which
                   they were each charged $55.00 per day. In order to compete with the
                   benefits offered by the hotels roscussed above) the management of the
                   complex supplied the BPAs with coupons redeemable at a local
                   supermarket in amounts up to $10.00 [or each day of their stay
                  depending on the size of the unit in which they stayed. The management
                  paid face value for'the coupons, which came in denominations of $5.00,
                  $10.00, $20.00, and $50.00. When purchasing items at tile
       ,
                  supermaxket, the BPA could obtain no more than $4.99 in cash as
                  change no matter the denomination of the coupon submitted. Thcrc was
                  no limit on which items could be purchased using the coupons.

                         As with the amenities discussed above, we do not believe that the
                  issue here is whether the BPAs should have deducted the amount of the.
                  coupons from their lQdging costs. They paid tbe complex $55..00 per day,
                  whether or not they accepted or used the coupons. Rather, the issue is
                  whether the BPAs should have treated the coupons as promotional         .
                  material to be turned over to the government and whether. if they did
                  not, they are liable to the government for the value of those coupons.s




                         4 We do not ~.e      it would be proper to analyzethe isst1ein terms of \vhether
                 the BPAs were required to reduce their claimed lodging costsbecause the credit was not
                 applied towards such costs. All BPAswho stayed at the hot~l paid th~ hotel $55.00 per
                 night. whether or not they took advantageof the credit by eating their meals in the
                 hotel.
                        , Unlike the meel credjt discussed above, we do not believe; the supcrmarkGt
',..             coupons can be equated to a complimentary meal, paJ"ticUla.rlysmce they apparently
                 were not limited to thc purchase of food items.

                                                                4
                                                                                  DOJ    OIG TtTCSON~~~
                /05/02           o,~: 33
                         1JU..I/U.LU
                                             "5"802 670 5246
                                                    8         I c...""V"...J.-'-'VJ.              """I."'\oA.I" INV HQ
                                                                                                                    ;.--"      , .vv   ~OO8/008

                                                        "-"                                             "-

                                As discussed above, promotional material is to be turned over to
                         the agency if: (1) the government can use the benefit; (2) a future benefit
         "'-'            the government could use WJ11 forfeited and/or (3) the benefit can be
                                                        be
                         redee~ed for cash value. Although it is a close question, it appears that
                         the BP.A..Sshould have tUrned the coupons over to the INS as promotional
                         m.aterial belonging to the government. Unlike the meal credit discussed
                         above, these coupons were not tied to any particular stay at the
                         apartment complex and theoretically could have been used by the INS to
                         reduce the cost of sending travelers to the area. Moreover, although the
                         coupons did not have cash value, the BPAs could receive some cash
                         benefit from them by limiting the items they purchased and collecting the
                         $4.99 in change permitted by the: supermarket.

                                 The regulations assume, however, tl'lat the agency has established
                         a procedure by which it will receive promotional materials from its
                         employees. 41 C.F.R. 301-53.1 (h). It does not appear that the INS
                          either provided the SPAs with any guidance about the use of the coupons
                         or made lalown to them any such procedures. Accordingly Jwe fault INS
                         management for failing to take control of the situation rather than the
                         individual BPAs who may have used the coupons during their stay in the
                         Douglas area.

                                       Cash Rebates Intended to Cover the Cost of Food
     ""-
                                Some of the SPAs stayed in a private home for which they were
                         charged $55.00 per day. To compete with the deals being offered by the
                         notels arid apartment complexes, the owner of the home gave each agent
                         who stayed in his properly a cash KrebateD $8.00 per day, whi1e still
                                                                      of
                         providing a r~ceipt for $55.00 in lodging costs. The owner explained he
                         intended the money to cover the cost of breakfast, which he, unlike the
                         larger hotels, did not provide his guests. In another variation of tlris
                         scenario, a real estate broker/property manager provided BPAs with .
                         lodging receipts for $55.00 a dP-y while only actually collecting $40.00
                         per day. The ,$15.00 was supposed to be the equivalent of the food
                         coupons being provided by the competing apartment complex.

                            We believe there is no doubt that the BPA's who received these
                     rebates should not have clajmed the full lodging allowance of $55.00 per
                      day because th~y did not pay $55.00 per day in lodging costs. The
                     regulations are clear that eIIlploye~s are to be reimbuTs~d for "actual
                     lodging cost not to exceed the. maximum rate for the [temporary duty]
                     location.       41 C.F.R. § 301-11.100. The regulations also provide that
                     "{a]U promotional materials (e.g. ...cash.    ..) received by employees in
                     conjunction with official travel and based on the purchase of. ..services
                         arc    propcrly     corJ.:.ldcs.'cd.   tIJ tI~ d.'-4C to ~h,; Qoycrn=~rl.'t    g.(1.c;1
                                                                                                               ~    not. 'DC
     ~                   retained by the employee.- 41 C.F.R. § 101-2S.103.2(a). Thus, the BPAs

                                                                                     5



v.
            UO/U;)/U;:          u~:Jol
                         """'-"""""'"    'atiu~    ti7U I5~"ij
                                                          '"""."""4.,",..~-"v..   lJUJ UJ.~ 1.LII,;~UN
                                                                                                     .""       J.~V l1~            ~UUIIUU~
                                                                                                                           I .VO


                                                                                                     '-'
                                                                                                 W'~"_.vv"



                         who stayed at these establishments and accepted the rebates were only
      '--'               entitled to be reimbursed for the amount they actually paid the
                         establishments and could be required to repay the difference between
                         what they paid and what they were reimbursed based on their claims
                         from receipts.

                                We also believe, howevcr I that the INS shares the blame in this
                         instance. INS should have been aware that there were lodging providers
                         willing to provide lodging for less than the applicable maximum per diem
                         rate and should have acted accordingly. In this regard, we note .that the
                         regulations specifically pem1it an agency to prescribe a per diem rate
                         lower than the prescribed ma.,Qrnumw.hen it "can determine in advance
                         that lodging and! or meal costs will be lower than the per diem rate.-
                         41 C.F.R 301-11.200.

                         VI.      Use of Govemment Credit Cards

                                You also inquired whether government employees on official travel
                         are required to use their government-iSsued credit cards to pay for the
                         travel expenses they incur. The applicable regulations provide as follows:

                                  What is the required method of payment for official travel
                                 expenses?        You      are       required         to   use   the       Government
    '...,                        contractor~issued travel charge card for all official                            travel
                                 expenses unless you have an exemption.

                     41 C.F.R. 301-51.1.

                                 What official travel expeTj,ses
                                                               and/ or classes of employees are
                                 exempt from the mandatory use of the Government
                                 contractor.issu~d trav~l charge card? The Administrator of
                                 General Services exempts the following from the mandatory
                                 use of the Government c.O:-1tractor-issuedtravel charge card:
                                 (a) Expenses incurred at a ,'endor that does not accept the
                                 Government contractor-issued travel chaIge card. ...

                     41 C.F.R. 301-51.2. These regulations were adopted pursuant to a 1998
                     law and were effective on May 1. 2000. 65 Fed. Reg. 21.365 (2000).
                     Accordingly after May 1, 2000, to the extent thatemplo}yees were able to
                     pay with the Government credit card, they were required to do so.




                                                                                  6



~
                                               I "",",.~v~"", v... DOJOIG rcJc~9J;i.'-'
             06/05/02      08:34   'a'602 670 5246                                 .~~W   H.Q
                    I,JI..:.J'
                          u.u           8                                                              .-   ~OO8/008

                                         ---



        "-          \011. Sharing: a Room

                            Finally, you inquired regarding the rules on reimbursement          when
                    two married employeesshaIe lodging. The relevant regulations provide
                    as follows:

                            How does sharing a room with another person affect my
                           per diem reimbursement? Your reimbursement is limited to
                           one-half the double occupancy rate if the person sharing the
                           room is another. Government employee on official travel. If
                           the .person sharing the room is not a Government employee
                           on official travel. YOUI reimbursement is limited to the single
                           occupancy ra re.

                   41 C.F.R. § 301-11.13. There is no rule req~ring employees, married or
                   not, to share a room. If they choose to do so, however, reimbursement is
                   limited to one-h~f the double occupancy rate.

                          If you have any additional questions please contact Gail Robinson
                   at (202) 616-0644.

                           Joseph Cuffari
       "'-                 Tucson Field Office




 '-"

                                                               7


cc:
                                                                               .Nov     26 2002   10:48      P.O2
                                                               U.S. Department Qice
                                                                             or

                                                               Office of the InspectorGeneral




                                                               KiJ.!hinglon.D C 20530

                  November 26, 2002
                  OGC-O2-007

                  MEMORANDUM FOR T.J. BONDURANT
                                 ASSISTANT INSPECTOR GENERAL
                                    FOR INVESTIGATIONS
                                                   ;r    / /       t;~
                                              ."h ,;{ 7 ~./( L
                 FROM:                      .HOWARD L. SRIBNICK
                                             GENERAL COUNSEL

                 SUBJECT:                     Legal Opinion Regarding Lodging Provided to
                                              Border Patrol Agents by Fellow Border Patrol
                                              Agents


                        You have requested an opinion regarding the legality of certain
                 lodging arrangements entered into by Border Patrol Agents (BPA's) who
                 were on extended travel away from their home stations in the Douglas,
                 Arizona area. As we understand it, there are two types of lodging
                 arrangements at issue. In the fIrst instance, two BPAs, on separate
                 occasions, rented rooms in the home of a fellow BPA who was
                 permanently stationed in the Douglas area. The evidence indicates the
                renters and the owner had worked together previously and shared a
                friendship.}

                     In the second case, tWo Supervisory Border Patrol Agents (SBPAs)
                who were permanently stationed in the Douglas area, together with their
                wives. purchased rental properties separateand apart from their primary
                residences. They then rented these houses to BPAs agents who were
                sent to the Douglas area on extended travel. None of the agents to whom
                they rented were in their direct line of supervision. The renters were
                recruited via word of mouth and the wives managed the properties.

                       For the reasons explained below, we have concluded that although
                nothing prevented the traveling BPAs from renting rooms in a fellow
                agent's home, the applicable regulations provide that the reimbursement


                        1 You explained that althoueh the homeowner is currently a supervisor. he did
                not hold this title at the time he rented to his friends. Accordingly. there are no issues
                regarding potential misuse of a supervisory position.                               .




ax:LUL~144001
DOJ/OIG                    Fax:2025144001                 Nov 26 2002    10:49




for such an arrangement was limited to the actual additional expenses
incurred by the host. We have further concluded that the SBPAs were
free to let their rental properties to BPAs whom they did not supervise,
and that because separate rental properties were involved,
reimbursement was not limited t~ actual expenses incurred.2

           Analysis

      Federal travel regulations provide specific rules regarding the
allowable reimbursement for different types of lodging.

           (a) Conventional lodgings. (Hotel/motel, boarding house, etc.
               will be reimbursed the single occupancy rate.


           (c) Lodging with friend(s) or relative(s) (with or without charge).
               You may be reimbursed for additional costs your host incurs in
               accommodating you only if you are able to substantiate the
               costs and your agency determines them to be reasonable. You
               will not be reimbursed the cost of comparable conventional
               l.odging in the area or a flat "tokenD amount.

           (d) Nonconventionallodging. You may be reimbursed the cost of
            .other types of lodging when there are no conventiona1lodging
               facilities in the area (e.g., in remote areas) or when conventional
               facilities are in short supply because of an influx of attendees at
               a special event (e.g., World's Fair or international sporting
               event). Such lodging includes college dormitories or similar
               facilities or rooms not offered commercially but made available
               to the public by area residents in their homes.

41 C.F.R. § 301-11.12.

      Under these regulationsJ it is clear that the BPAs who rented
rooms in their fellow BPA's home could be reimbursed for lodging
expenses only to the extent they could substantiate any additional costs
the homeowner incurred as a result of their stay. Moreover, this would



         2 As we understand it, the SPEAs purchased their rental properties sometime
after the Border Patrol had begun sending BPAs to the Douglas area in large numbers.
Accordingly, there is no argument that the SPBAs had access to any special knowledge
as a result of their jobs or that they misused any such kno\\1edge. Similarly, that the
renters were not in the chain of command of their landlords eliminates issues about
whether the supervisors could have misused their positions to recruit or hold the
renters.
                                               2
                     8
                         t"aX:LUL~144UUl

                                                      .
                                                 Nov 26 2002   10:49




have been the case even if they and the homeowner had not shared a
                                                                        P.O4




friendship.

       In numerous decisions interpreting the regulation, the Office of the
Comptroller General has made clear that "[r]egardless of the character of
the relationship between the employee and his host. ..claims involving
noncommercial lodgings should be supported by information. indicating
that the lodging charges are the result of expenses incurred by the party
providing the lodging." Matter of Clarence R. Foltz, 55 Compo Gen. 856
(1976); ~ ~      Matter of Peter Lalic, 68 CompoGen. 329 (1989).

       Accordingly, the BPAs who rented rooms in their colleague's home
could have legitimately ~laimed lodging reimbursement only to the extent
that they could show that their host incurred additional expenses by
putting them up. Absent such evidence, no lodging reimbursement was
appropriate.
        BPAs who stayed in actual rental properties owned by other Border
Patrol employees were not subject to this limitation. Under the
regulations and the Comptroller General decisions interpreting them, the
crucial distinction is whether the property that was rented can properly
be labeled commercial in nature. Separate units that are not part of the
owner's home and that would be available to the general public for rent
are considered commercial in nature. Moreover, Ilcommercial type
accommodations do not automatically turn into noncommercial
accommodations under the regulations merely because the employee
traveler knows the lodging operator, or the operator is a friend or even a
relative." Matter of John T. Bailey, 8-230,472, 1989 WL 240521.

      Accordingly J the BPAs who rented homes from the two SBPAs
would have been entitled to reimbursement for the cost of the rental,
assuming the amount charged was consistent with market rates and did
not exceed the maximum rate authorized for the area.


cc: Roger Williams
   Joseph Cuffari




                                           3
                                                                                                  P.02



                                                       U.s. Department of Justice
                                                        Immigration and Naturalization Service
                                                       Office of Internal Audit



                                                        425 I S/ree/ i\'W
                                                        Iflashing/on. DC 20536
                                                                                                           /
                                                                                                          pJ-t..
                                                      DEL; 122002
                                                                                                         J1IY~'t

                                                                                                         P,tl.t
       MEMORANDUM FOR T. J. BONDURANT                                                                     I2t
                                ASSISTANT INSPECTOR GENERAL
                                FOR INVESTIGATIONS
                     ()         OFFICE OF THE INSPECTOR GENERAL

       FROM:
                    i£~~~::::::.::::::.
                  r-- Sue Armstrong
                     AssistantDirector
                     Internal Investigations Branch

       SUBJECT:       Office of Inspector General CaseNo. 0205111
                      Re: UNKNOWN


          Pleasefind attached documentation of the resolution of the subject case. We have closed the
       caseand will take no further action on it.

          If you have any questions regarding this case,please contact me at (202) 514-5765.




Att.
                         It~S alA   IB                                                                     P.0.3

                         8
                                                    u.s. Department of Justice
                                                    Immigration       and Naturalization         Sen/ice



                                                    HQFIN 80/1

                                                    ...251 Slrtt!l NJV
                                                    Jr'ashi!!.']lolI DC }1}5.~6




MEMORANDUM FOR SUE E. AR!'v1STRONG
               ASSISTANT DIRECTOR
                         OFFrCE OF INTERNAL            AUDIT                              ".
                                         "   /"".      I      (c
                                                               '         It
                                                                     ""'7~"           (.1'..-'
THROUGH:                 Judy R. Hamson ..A-     .cL, t.               i. ~,"~
                         AssistantCommissiU;
                         Office of Financial Mana~ement
                                                                    17
FROM:                    Tommy J. Dodson
                         Director
                         Dallas Fin..mce Center, Office ofF'                      Management

SUBJECT:        Office of Internal Audit (OIA) Case NQ. 02XO31 0 I

        The Office of Financial Management(OFM), Dallas F'inanceCenter (DFC) has reviewed
the inforn1ation referencedin OIA CaseNo. 02X03101 that reJatedto an incorrect use of
per diem rates as reported hy the Office nt"lnspector Generalas a result of an audit of travel
vouchers.

         The OFM DFC detectedthe errors in April 2001, and corrective measureswere taken by
infonning travel payment staff that applicable per diem ratesare basedon the ordered point of
travel ,;!D.Q lodging location at that time. Additionally. the office that preparedthe travel
            the
authorizations was contacted, and the requirementsof the f"cderal Travel Regulation (FTR) wcrc
discussed in detail.

        The DFC has provided txten$iv~ training to bett~r educate the Immigration and
Naturalization Service (INS) staff of the FTR requirements. The General Services
Administration,  'ho is the authoritative source for FTR training, conducted on-site training for
DFC Pennanent Changc of Station :)taffin April 2002. Additional Temporary Duty training \,'v'ill
be given to DFC scaff in October 2002. which will be conducced by a tOnt1erinstructor of travel
at the Community Collegc of the Air rorce.
                        INS OIA lIE                                                            P.04

                         8
Memorandwn for SueE. Annstrong                                                     Page 2
Subject: Office of Internal Audit (OIA) CaseNo. 02XO3101




       The OFM also provided extensive training on travel v'oucherpreparation at the INS
Nationa11~ravelManagementConference in June2002. Managers from offices throughout the
INS Vv'hoattended the conferencereceived specific instruction on how to prepare proper travel
vouchers. Implementation of the Federal Financial Management System (FFMS) on
October 1, 2002, is expectedto increasesystem and payment efficiencies. The INS will also
implement an improved Travel Manager system which will provide additional controls to ensure
claims submittcd by travelers are accurate,and in compliance with the FTR.

       The DFC staff had less than one year of experience in travel reimbursements during the
time period in which the FY1999 and FY2000 vouchers v.°ere    processedand the errors occurred.
The quality of audits has increasedas a.result of experience gained by the payment staff.
refinement of paymentpractices and controls, 3l1dcontinued emphasison training.

       The DFC will continue reviewing the exception items referencedand \A.ill work closely
with GSA to detennine if collection of overpayments is required. Most of the documentation
supporting the claims has been sentto the archives for storage. Retrieval of archived
documentation and resourcesrequired to researchand cvaluate each item will incur some
administrative costs. Becausethe amount of errors in question is immaterial, and the analysis of
each overpayment is quite complex. a cost benefit analysis indicates collection of the amounts
due would not benefit the INS.

       The revised processingprocedures,education, and increasedexpe11ise the DFC staff,
                                                                           of
coupled with the future deployment of Tra\'el Manager and FFMS, provides reasonable
assurancefuture travel voucher discrepancicswill be minimizcd.

       If you ha"'e any questions,p1ea.~e
                                        contact me at 214-915-6111.




                                                                                            TOTAL P.04
                                                        IT.S.Department
                                                                      o.etice
:;::.~:~:i~':~~:t.                                      Immigration and Naturalization Service
ili;~'~.I!i-::!                                         Office of Internal Audit
i'~;"~~~iifp:!':

                                                         425 I ~'tr£'£'1NIl'
                                                         IVashillgtol,. DC ::0536


                                                         August 7, 2002




   MEMORANDUM           FOR T.J. BONDURANT
                            ASSISTANT INSPECTOR GENERAL
                             FOR INVESTIGATIONS
                            OFFICE OF INSPECTOR GENERAL

   FROM:             Sue E. Amlstrong           /1'1'./t-y~     1
                     Assistant Director         vy      / U      /

                     Office of Internal Audit

  SUBJECT:           Office of Internal Audit (OIA) Case No. 02XO310I1
                     Office of Insgector General (OIG) Case No. 200200511lM

         This is in responseto your memorandumof May 15, 2002, regarding the above-
  referenced case. Attached pleasefind a copy of our referral to the Immigration and
  Naturalization Service's Office of Financial Management, which provides our determination in
  this matter. If you have any questions,pleasedo not hesitate to contact me at (202) 307-5885.

   Attachment
                                                  u.s. Department of ~ce       .
                                                  Immigration and Naturalization Service
                                                  Office of Internal Audit



                                                  425 J Street NW
                                                  IVashington,   DC 20536


                                                  August 7, 2002




 MEMORANDUM          FOR JUDY R. HARRISON
                          ASSISTANTCOMMISSIONER
                          OFFICE OF FINANCIAL MANGEMENT

FROM:            SueE. Armstrong
                 Assistant Director
                 Office of Internal

SUBJECT:         Office of Internal Audit (OIA) Case No. 02XO31 0 I

         The attachedmaterials were received from the Office of InspectorGeneral (GIG). They.are
     the result of an audit of travel vouchers perfonned by the GIG in connection with an
in\'estigation related to reimburscmcnt claims filed by employeeson detail to the Tucson Sector.
The OIG audited vouchers filed in FY 1999 and FY 2000. As a byproduct of the audit, the OIG
prepared the attachedreport, and states that it appears that the Dallas Finance Center madeerrors
in processing the vouchers, in particular, paying incorrect lodging and meals and incidental
expenses rates. The OIG states it appearsthat the errors resulted in $16,430.67being paid
improperly to employees. This matter is being forwarded to your for your review, consideration
of appropriate corrective action if you deem it warranted, and responseback to this office.

         The OIG recommendedan audit of procedures in place at the Dallas Finance Center for
processing vouchers. We are also interested in your responseregarding seeking repaymentfrom
employees who were improperly reimbursed, if you detemline ihat is the case. Pleaseadvise us
in writing no later than 60 days from the date of this referral as to your progress in addressing
these findings. If you have any questions,pleasedo not hesitate to contactme at
7-5885.

Attachment
                                                     Office of the Inspector General




                                                     fIlI,hingl,'n.   DC. 205.~O



     May 15, 2002


     MEMORANDUM



    TO:                      John Chase, Director
                             Immigration & Naturalization Service
                             Office of Internal Audit


    FROM                     Thomas J.                                             J-
                                For Investigations
                                                                        UZ;(t~/L)1
    SUBJECT:                 DIG Complaint 2002005111-M


    The Office of the Inspector General (OIG) has been conducted an investigation in
    Southern Arizona as it relates to the lodging of Border Patrol Agents (BPAs) detailed in
    support of Operation Safeguard. I believe that you are aware that our investigation
    involved an audit of travel vouchers submitted by detailed BPAs for a two- year period.
    The covered period was FY 1999 and FY 2000.

    GIG Auditor Herman Smeenk has now completed this audit and as a byproduct he
    produced a repor1 that detailed errors on a number of travel vouchers paid totaling
    $16,430.67  in overcharges to the INS. I have enclosed a copy of this repor1 for your
    review as well as copies of the source documents that serve as the basis for our
    complaint.

     It is our understanding that the Travel Section of the INS Finance Center in Dallas,
    Texas is responsible for the review of travel vouchers prior to payment being authorized.
    We believe that your office should consider an audit of this process to determine if there
    is a systemic weakness that requires corrective action.

    This matter is being referred to your office as a management issue. Please let me know
    within sixty days of your response to this matter.

    As always,   your cooperation   in this matter of mutual          interest is appreciated.




.
          DIG     -INVESTIGATIONS           DIV~N       -IDMS                             OIG         TC-412-200200S111-M

          Received        By:   Williams,    Roger M                Date Received:       05/15/2002         How Received:            I

         SUBJECT: UNK INS PERSONNEL,                                           SSNO:
         Title:    ADMIN            Pay Plan:  -/                           D.O.B. :     / /
         Component:     INS         EODDate:   /  /                     Alien   Number:
         Misc:                                                          F. B. I. No.:B.O.P.
         Home: , ,                                                               No.:
         Phone:       --ZIP:Work:                                       D/L STATE:
                  DALLAS FINANCE CENTERTRAVEL SECTION, DALLAS, TXPhone:         No.:
                      --ZIP:
         Judicial    Action:                                         Administrative     Action:

         COMPLAINANT:           SMEENK,     HERMAN                                                     SSNO:
         Title:   ACCT               Pay Plan:   -/                                                  D.O.B. :  /         /
         Component:   OIG           EODDate:     /  /                                            Alien Number:
         Misc:                                                                                   F. B. I.   No.:
         Home: , ,                                                                               B.O.P.     No. ~
         Phone:     --ZIP:                                                                       OIL STATE:
         Work: OIG HQ, INVESTIGATIONS DIVISION, WASHINGTON, DC                                         No.:
         Phone: 202-616-0650               ZIP:
         Contact:            Confidential:     N      Revealed:                                   Authority:
         ALLEGATIONS:        Offense:     412 -Job      Performance     Failure
         Occurrence      Date:     ONGOING        Time:    UNKNOWN       City:     DALLAS,                       State:         TX
         Details:
         The OIG initiated           an investigation       concerning    possible     travel   voucher      fraud    in
         connection       with the unauthorized          acceptance     of amenities      in the   form of cash
         credits,     meal allowances,         grocery    foo coupons,       that were offered      by hotels       in
         Southern     Arizona      that were competing         for business      to house Border      Patrol     Agents         in
         support    of Operation        Safeguard.

         In that regard,   an audit of travel  vouchers submitted,  was conducted   (OIG
         2001002553-I   Gadsden Hotel, et al),  for a two year period covering    FY 99 and 2000

        As a byproduct    of this OIG investigation,     this audit found what may be a systemic
        problem at the INS Fiance Center,       Travel Section,   with the accurate review of
        travel  vouchers prior     to payment thus resulting    in overpayments to BPAs    This
        audit  discovered   multiple   errors for this two year period that totaled     over
        $16,000.00.

        DISPOSITION DATA: Office:  TC                   Date:      05/15/2002                         M   Approval:          RMW
        Referred  To Agency: INS/OIA                                                                     Component:          INS
        Fee Case: N                                        Civil     Rights:     N                           Priority:         N
        Other Number:                                                           Consolidated    Case Number:
        Remarks:


        Relates      to    DIG 2001002553,          Gadsden Hotel,       et al.

        Memo from AIG/I to Director   Chase requesting consideration  of                           OIA Audit        of travel
        section  at INS Finance Center, Dallas,  Tx. and response within                            60 days.




Disposition:
:
                                                                                                                    I




                                                                                  8
                                                             u.s. Department Justice
                                                                           of
                                                                                                  ..       .I

                                                                                                         ,"\.
                                                                                                                I
                                                                                                         ~l
                                                             Immigration and Naturalization Service
                                                                                                           0:,)
                                                             Office of Internal Audit                      UJ
                                                                                                           I:J


                                                                                                         BOHLINGER




             MEMORANDUM FOR GEORGE H. BOHLINGER III
                            EXECUTIVE ASSOCIATE COMMISSIONER
                            MANAGEMENT

                                      MICHAEL A. PEARSON
                                      EXECUTIVE ASSOCIATE COMMISSIONER


            FROM:

                            Office of lntemal Audit

            SUBJECT:        Procedural Reform Recommendation -Lodging       During Detail Assigrunents

                        The purpose of this mcmorandum is to provide information regarding findings in
            several investigations of allegations of employee misconduct related to lodging arrangements
           and claims for reimbursement. The allegations \\-'erelodged primarily in areas in which there are
           a large num her of detailed employees, such as at the Service's training academics or in long
           tenn, large scale enforcement operations. These findings have ethical and misconduct
           implications for individual employees, and highlighr the agency's obligation [0 disseminate
           information to detailecs.and ptm1anent staff in the locarion of the detail, in a manner that
           protects cmployees from inadvertenrly bccoming involved in situations thal represent violations.
           It is recommended that [his intonnation be rcviewcd with an eyc roward correcting systemic
           weaknesse~.

                   The infonnation presented below is based upon prior and current investigations by the
           Office of Internal Audit (OIA) and thc Office of Inspector General (OIG) into situations
           described below. Undcr each allegation is a discussion of the potential violation or ethical
           consideration.




.
ORIG:MR.
                                                                                                        I-'.~~
  Subject:   Proccdural Ref 01   ~ecommendation                                Page2


              Service employeescoming to a detail assignmentwere put in contact with by
              other employeesor learned of by word of mouth, local property maoagcment
              companieswhich provided lodging at a lower rate than tbe allo,,'able daily
              lodging ~te, and were issuedreceipts reflecting tbe full allowable amount They
              then vouchered tbe full aUowabledaily )odgiog rate 2nd were rcimbursed.

 'This scenario, in which employees were issued a receipt which did not accurately reflect the
 amount they paid for lodging is 3 clear violation, which can subjec( ilie employee to crimina]
 penalties (18 Uni(ed States Code 287, False, Fictitious or Fraudulent Claims), or disciplinary or
 adverse action. Employees are authorized (0 claim up to the allotted lodging amount in a
 pal1icular location. If they are not charged rhe full amount. they are not,entitled [0 claim it.

              Scn'ice employeescoming to .1. detail assignmentwere put in contact with by
              other employeesor learned of by word of mouth, a local commercial                    '""
              f:stablishment or property managementcompany which provided lodging at the                , "'-
              full aUowabledaily lodging rate, but were given a "rebate" eacb day. These       1       ~
             rebates took various forms depending upon the location: vouchen usable at ("",'             ,..':;1.'
             hotel dining, bar Bnd barber facilities; vouchers usable at local grocery 5tores~ fj'~.,~'?
             cash; and also a certain dollar amount per day that an employee could charge t~ ~'::.
             their room for food aDd iDcidentals at the hotel. The rebate amount was not         '-".-'"
             included in or deducted from the lodging rate in any of thesesitdstions.

 (n these scenarios, the rebate or credit falls into the category of promotional materia! received in
 conjunction with official travel from a commercial activity. This is not the equivalent of a hotel
 offering a continental breakfast or happy hour to all guests. built into the lodging rate, for which
a federal traveler would not have to account. Title 41 of the Code of Federal Regulations (CFR)
 Section 101-25.;03-2 states that. "All promotional rl1aterials,(e.g., bonus flights, reduced farc
coupons, cash, mer(:handise. gifts. credits toward future free or reduced costs of services or
goods. etc.) rcceivcd by employees in conjunction with official travel and based or. the purchase
ofa ticket or other services (e.g., car rental) are properly considered to be due the goverrunent
and may not be retained by the employee. The Comptroller General ofthc United stateshas
stated that employees are obligated to account t~r any gift. gratuity or benefit received from
private sources incident to the performance of official duties (see Compo Gen. Decision B-
199656. July 15, 1981).. When an employee receives promotional material, the employee shall
accept the material on behalf of the United States and relinquish it to an appropriate agency.
official." If an employee uses a coupon or credit provided by a lodging establislunent, they
should adjust the Meals and Incidental Expenses (M&IE) claimed on their voucher accordingly
(e.g., subtract the amount of the credit or value of the coupon per day from their M&IE claim).

Another alternative would be for managcm.nt to llegotiate a favorable market ratc for lodging
with [he providers. and disallow gratuities up front. It is noted that the (NS is not currently in
compliance with 41 CFR 101-25.103-1, which states that federal agencies in a position to r~ceive
promotional matcrials shall es[ablish internal procedures for the receipt and disposition ofsamc.
      Subject: Proccdwal Rer8Recomrncndation


                 Service employees rented rooms in private r('~ideDce5loc:atedfor them by
                 SPOUSe5 permanent academy or Sector employees. Additionally, some oftbe
                          of
                 rental properties were owned by Service employees. In some cases,employees
                 were charged the fuU allowablc daily lodging rate. in others. they were cha.rged
                 Ie!s than the full daily rate, but were issued a receipt of the full rate amounL

                 The spouses of pennanent academy staff operated as "relocation" entities and
                 provided lodging for incoming detail instructors. Some of tbt spouseswere
                 o~rating as an incorporated busin~s entity, others were not and were simply
                 issuing monthly lodging rectipfs under a fictitious business n~me. Somt of the
                 spousespaid a "rmders fee" to staff who ronvarded names or potential detailce
                 renters to them.

     While there is no prohibition agajnst owning a rental property and renting to other employees (or
      through a rental company), some factors should be consid~red-
     The first scenario, above, again represents clear violation in the fonn of a false claim if the
                                                   a
    employee submitSa voucherclaiming the full allowable lodging ~te. The issue of employee or
     spousal employment in the real est4.te   business,and either locating or providing rental properties
    to other employees who come to the area on an official detail, has several ethical-implications. If
    the rental businesswas not an ongoing concern before the details started, the employee could be
    construed to be profiting from knowledge related to their official duties (e.g., the number and
     identity of incoming det4.ilees), possible conflict of interestunder 18 USC 208, prchibition
                                       a
    against participating in matters affecting an employee's own financial interests(See also, 5 CFR
    Pan"2635, Use of Nonpuhlic Information)- Even if the rental businessis ma11aged the spouse,
                                                                                           by
    the spou...alrelationship still cquates it with an employee's own financial interests.

    Evidence obtained in these investigations disclosed that employees who claimed there was an
    "3ffi1Slength" relationship with their spouse's business in that the businesswa.~in the spouse's
    name only, actually engagedin showing properties to othcr employees. and served as
    intermediaries for messages   about properties and rcntal payments. This confirmed that the
    situation reflected upon their own financial interests.

    There may also be an inappropriate supervisor/subordinaterelationship if a permanent
    supervisory employee (or spouse)is engaging in a financial transaction with someone under their
    supervision. The "finders fee" is inappropriately offered and accepted. Employees should not be
    profiting from infonnation obtained by virtue of their official positions.

                Service employees rented rooms in the private residences of permanent
                employees of a detail location, and were charged and issued a receipt for the full
                daily lodging rate, which they then claimed for reimbursement on a voucher.

    Again. there is no prohibition againstowning rt:ntal property and rcnting to othcr employees.
    ho"'"ever. the Federal Travel Regulations speak to thl' issue of rentals in onc's primary residence.




                                                                                                     TOTAL P.10

.
                                                                                                                                               P.04
                                                                         US Department                of JulGl:r
                                                                        Immigration and Natur~tion                     Sel'\'ict'



    -H9FfN                                                                                    80/9           aUv~              ~//   A (}../
                                                                            J25 1.)i"~CI. N£J'             /_.     -~~"/A/~-

                                                                            'J'a.~hmg(l)n.
                                                                                         DC 2fj536
                                                                                                " ',-',
                                                                                 ..0_":"1..




      MEMORt\NDLTM FOR ALL INS EMPLOYEES

     FROM:          JudyR. HarriSO
                    Assistant   Conunis   ~~   1   ner   /l."'J:~~.A./I~;'--'-




                    Office of Financi               anag em

     SUBJECT:

             This is the eighteenthin a seriesof frequently asked question messages
                                                                                  from the Office of
     Financial Managementconcerning policy for travel. The topic of this memorandum is Lodging
     Dllring Temporary Duty Travel (TDY). If you have nlrther questions,please contact Tamara
     Echols at (202) 307-4617or Kurt Snydcr at (202) 616-9939.

            Please note that the infonnation contained in thesemessages does not supersedespecific
    language in the Immigration and Naturalization Service's bargaining unit contracts. Rather.the
    provisions of thesemessages    should be understoodand applied in a manner consistent with the
    requirements of the applicable labor agreement,if any.

    General Rules

    I. QUESTION: What types of accommodationsshould I obtain while on official TDY?

       ANSWER: Employeesare encouragedto stay in conventional lodging facilities~ suchas
       commercial hotels, motels and lodges, that have beenapproved by the Federal Emergency
       Management Agency (FEMA) as "approved accommodations." For a list ofFEMA approved
       hotels~you may visit \\"\\-w.Dolicyworks.Qov/rravel make your reservations tillough your
                                                         or
       local Travel ManagementCenter(TMC). Reference:Federal Travel Regulation (FTR)
       Section 301-11.11




.
                                                                                                      P.OS

  Memorandumfor All Em~ees                                                8
                                                                                          Page2
  Subject: Frequently
                    Asked Questions
                                  aboutTemporal)'DutyTravcl #18




  2. QUESTION: What if! chooseto stay with a fricnd or relative?

    ANSWER: Employees arepermitted to stay with friends or relatives while on TOY.
     However, employeeswho rent from a place that is not commercially available to the public
     \Nill not be reimburscd the cost of comparableconventional lodging in the area or 3.flat
    "token" amount. Instead, reimbursementwill be limited to additional costsyour host incurs
    in accommodating you, (e.g.,the rental ofa cot or bed). The extra costspaid to the friend or
    relative for suchitems may be reimbursedto the employee but must be substantiatedwith
    proof~ such as a bill or statement. Reference:FTR Section301-11.12

    If an employee stays in a room or house of an individual who is in the businessof renting
    rooms to the public, then the employeerenting the accommodationsmay be reimbursed for
    the rental costs. The rental cost should not exceed the amountchargedto the generalpublic
    and the maximum per diem rate allo\\"ed for that location.

 3. QUESTION: What if the propert)' o~er or the property managementoffer or agrec to
    provide a receipt for a higher amountthan the amount actually paid?

    ANSWER: An employee may not submit a claim that doesnot accuratelyreflect the alnount
    paid for lodging. Submitting a claim for more than the amount actually incurred is a
    violation of the US Code (18 United StatesCode 287, False, Fictitious or Fraudulent Claims)
    and can subjectthe employee to criminal penalties, or disciplinary or ad"erse action.
   Employees areauthorized to claim up to the allotted lodging amount in a particular location.
   If the employee is not chargedthe maximum lodging per diem amount, the employee is not
   entitled to claim it. Employees should ensurethat the lodging receipt reflects the actual costs
   incurred, net of any cash rebatesor similar credits.

4. QUESTION:      What should I do with vouchers or credits that I receive \J,.'hilesta)ring at a
   conunerciallodging facility?

  ANSWER: Pursuantto Section 1116of the National DefenseAuthorization Act for Fiscal
  Year 2002, the Gcneral ServicesAdministration has issuedthe following regulation: Any
  promotional benefits or materialsreceived from a travcl serviceprovider (i.e., frequent flyer
  miles, upgrades.or accessto carrier clubs or facilities, and coupons for discounted meals or
  services provided by the hotel) in connection \'v"ithofficial travel may bc rctained for personal
  use, if such items are obtained under the sameconditions asthosc offered to the general
  public and at no additional costto the Government. Reference: FiR 30J-10,1n1E'ndmenl
  104
    Date:     04/23/2002 11:01 AM
    Sender:   INS Broadcast
    To:       Karina Anchieta; Barbara Anderson; Diana L Anderson; George E Anderson; Peder A
              Anderson: Robert Anderson; Ross S Anderson; Ross TDY Anderson; Stuart Anderson: Kurt
              0 Andolsun; Sharon Andrade; Thomas Andreotta; Brian Andrews; Chonlatit Andrews; Jim R
              Andrus; John J Andrzejewski; Jackie Angelelli; Jerald Angell; Franca B Angelucci; Karen S
              Angelucci: Reemployed Annuitants; Jacob A Antoninis; Gabriel Anwar: Vicki L Apodaca;
              Ermin Apolinario; Myriam Aponte; Gregory J Archambeault; Carlos W Archuleta: Karlee
              Arey; Jeannette C Armel!; Daniel D Armendariz; Rose-Marie Armstrong; Sue E Armstrong:
              Jill Arndt; Kurt R Arneson; Paul Arnold; Norma A Arocho; Ismael Arreola: Mario Arreola;
              Susan K Arroyo; James K Arthur; Paul S Arthur; Larry G Arthurs; Octavio Arvizu; Kwabena
              Asamoah; Weekly Report ASC; Robert A Aserkoff; Jennifer L Ash; Earl L Ashton
    Priority: Normal
    Subiect:FreQuently     Asked Questions #18-LodQinQ Durino Temporav Duty
     Forwarded     on behalf    of:     Office     of Financial     Management
                     *.*                              *****.*ww                        **           *
    MEMORANDUM       FOR ALL    INS    EMPLOYEES

    FRO/..,:     Judy R. Harrison
                 Assistant Commissioner
                 Office    of Financial      Management

    SUBJECT:          Frequently  Asked Questions            #la-Lodging      During    Temporary
                      Duty Travel

    This is the eighteenth    in a s~ries of frequently    asked question
    messages from the Office    of Financial   Management concerning    policy
    for travel.   The top~c of this memorandum is Lodging During Temporary
    Duty Travel  (TDY).    If you have further  questions.   plea2e contact
    Tamara Echols at (202) 307-4617 or Kurt Snyder at (202) 616-9939.

    Please note that the information          contained    in these messages does not
    supersede specific      language in the Immigration         and l1aturalization
    Service's   bargaining     unit contracts.      Rather, the provisions        of these
    messages should be understood and applied            in a manner consistent        with
    the requirements      of the applicable     labor agreement,      if any.

    General Rules
    1.   QUESTION: What types            of accommodations         should   I obtain        while
                   on official            TD'l?

    AlJSWER: Employees are encouraged to stay in con',entional        lodging
             facilities,  such as commercial hotels,     motels and lodges,
             thac have been approved by the Federal Emergency Management
             Agency (FEMA) a~ ~Iapproved accommodations."        For a list    of
             FEMA approved hotels,     you may visic ~~.policyworks.gov/travel
             or make your reservations     ~hrough your local Travel Managemenc
             Center (TMC). Reference:

               Federal     Travel     Regulation      (FTR) Section     301-11.11

    2.   QUESTION: What if            I choose to stay      with   a friend    or relative?

    ANSWER: Employees are permitted     to stay with friends    or relatives
            while on TDY. However, employees who ren~ from a place tha~
            is not commercially   available    to the public   will    not be
            reimbursed the cos~ of comparable conventional          lodging in
            che area or a flat. "coken" amount..      Instead.    reimbursement




.
                 will  be limiced    co additional   costs your host incurs   in
                 accommoda~ing you, (e.g.,       the rental of a cot or bed).
                 The extra coete paid to the friend or relative        for such
                 items may be reimbursed to the employee but must be
                 substanciated    with proof,    ~uch as a bill or s~a~ement.

                 Reference:    FTR Section    301-11.12

                  If an employee stays in a room or house of an individual
                 who is in the bu!iness    of renting rooms to the public,
                 then the employee renting    the accommodations may be
                 reimbursed  for the rental costs.    The rental  cost should
                 not exceed the amoun~ charged to the general public       and
                 the maximum per diem rate allowed for that location.

     3.     QUESTIO}1:    tihat if the property   owner or the property       management
                          offer   or agree to provide   a receipt     for a higher
                          amount than the amount ac~ually       paid?

     ~.NSWER :    An employee may not submit a claim that does not accurately
                  reflect    the amount paid for lodging.          Submitting     a claim for
                  more than the amount actually           incurred  is a violation      of the
                  US Code (18 United States Code 257, False,             Fictitious     or
                  Fraudulent    Claims) and can subject the employee to criminal
                  penalties,    or disciplinary       or adverse action.        Employees are
                  authorized     to claim up to the allotted        lodging     amount in a
                  parcicular    location.       If the employee is not charged the
                  maximum lodging per diem amount, the employee is not
                  entitled    to claim it.       Employees should ensure that the
                  lodging    receipt   reflects    the actual costs incurred.        net of
                  any cash rebates or similar          credits.

     4.                  Wha~ should I do with       vouchers or credits  that I
                         receive while s~ayin9       at a commercial lodging facility?

     ~~SWER: Pursuan~ to Section 1116 of ~he National              Defense Authorization
             Act for Fiscal Year 2002, the General services               Administration
             has issued the following          regulation:     Any promo~ional     benefits
             or ma~erials      recei'.,ed from a ~ravel ser".rice provider
              (i.e.,  frequent     flyer   m~les, upgrades.     or access to carrier
             clubs orfacilities,         and coupo~s for discounted       meals or
             services    provided by the hotel)          in connection   wi~h official
             travel   may be retained       for personal use, if such items are
             obtained    under the same conditions          as ~hose offered    to the
             general public and at no addition~l             cost to the Government.

                 Reference:     FTR 301.10   Amendment 104




QUESTION:
                                       It~S

                                   8                                            e
                                                        u.s. Dt:partment of Justice
                                                        Immigration and Natucalizarion Service
                                                        U.S. Border Patrol

                                                                          TCA 100/5.7-C

Office of the Chief Patrol Agent                        1970 \\-: Ajo v.'ay
                                                        Tuc,s'oll.
                                                                 ,\rl:OIlQ 8.~713
                                                        (520) 670-6871


                                                       April 25, 2002




   MEMORANDUM FOR GUSTA VO DE LA VINA
                  CHIEF, U.S. BORDER PATROL
                                   WASHlNGTO,.,C            ~ /
   FROM:                David V. Aguilar      I)(J~~~~~;/
                        Chief Patrol Agent
                        Tucson Sector

  SUBJECT:             Local Actions Taken on Allegations

           The following informa[ion is being forwarded asa means of updating your office on
   certain specific actions taken by Tuc~on Sector on the allegations of impropriety on [he part of
   Agents detailed into the Tucson Sector. The matter is cun-ently being investigated by the Office
   of Inspector Generaland the INS Office of Internal Audil and was discussed by Office of
   Internal Audit Director John Chase at the Chief Patrol Agent breakout session on April 1. 6th.

          The allegations of improprieties related to housjI)grentals by Border Patrol Agents
  detailed into the Douglas Station were first received on Ma)' 8, 2001 by APAIC Nanna King.
  APArc King notified the Office of Inspector Genera! and Tucson Sector Headquarters by way of
  memorandum on the sameday.

  Dou~las Station

  All incoming details are addressedby Supervisory Border Patrol Agenr personnel at the time of
  their am vul and scheduling into the station rotations. Commencing with [he May 20, 2001 derail
  rotation. [hc issue of improprieties relating to housing/rcn[als has been addressed.It has been
  made clear that an employee should not submit a claim that does not accurately reflect the
  amount paid for lodging. This procedurehas been followed through the last detail roration into
  the Douglas Station that ended on April 21,2002.
(-~~~~   J.J.."i~        lrl~   IJ1H   11%:1

MEMORANDUM T~ST                 A Va DE LA VINA, CHJEF                          Page2
Subject: Local Act1ons'Takenon Allegations


Naco Station

The Naco Station received 10 detailers commencing February 11, 2001. The Naco Station has
included the samehousing/rental specific briefing and cautions since November 8,2001. Naco
continued this type of briefing through the last rotation that occuTTed March 23, 2002.
                                                                      on

Casa Grande -Tucson -A io Stations

The CasaGrande,Tucson, and Ajo Stations arc currently receiving detailers as an c.lllgmentation
to their West Desertoperations. The detailers all receive the same type of briefing relative to
housing/rental concerns.
                                                        U.S. Department of Justice
                                                        ImmigraUQD. NaturaEzaticmS~cc
                                                                     and
                                                        U. S..Bordcr Patrol
                                                        Office of the Chiet"Patrol Agent
                                                        San Diego Sector
                                                                                        SDC 50/1
                                                        .1411 Boswd &(11
                                                        ChIIl4 r £J&I, Vontf491' 11-~J1.9
                                                                    Ca1


                                                       Apn124.
                                                             2002




         MEMORANDUM FOR SECTO~STAFF
                        PATRQLAGENTSm CIIARGE,                                      .
                                .SuPERVISORY SPEQAL A"GENTS
                                 ~   RCEMEN T D EPAR TMENT HEADS
                                 ALL ~GENTS               .
                                 SANDIEGO SECTOR

         FROM:       "Willimn Veal~~~~ .?4"
                            T.
                     ChiefPatrolAg~


     STjB~.cT: EthicalIssues
                           ~1viru!: TravelVo~~

            ~      Sm"i~Wrec6ntlye~cri~ced.a.m~m~ut..in~intravelvoQc~problem,g.
 ranging fl;om simplemistakesto .~     vjolations to mud WRn'3Ilting
                                                                   c:rimiDaI
                                                                           prosecution...
                                                                                        Smcc
 tho San Diego SectoI ft'CqueDtlydet.a11s
                                       employees othcr Sectorsand to tho'Academi~~ all .
                                                   to
 employees ~_t:Jed oftbe foDowing
         arc                    pr'o~ns oftbe Fed~ Tra~ RcgulatiOns
                                                                  regarding
 rcimburscmcnt fur lodging in particular.

           Reimbcrs~       for lodgingInllstbe based acttIa1
                                                   on      oost. Rece~ arerequiredfor
 reiIDbursem~ of an Iodgicg expenses~ receiptsmust ~ely
                                           and                        reflect the amount actually
 paid for IodgiDg cost.!. It is lmacce'S'table submit 8.cWm usinga receipt which reflects a higoJ1er.
                                            to
 atI1Ount~     actlJa1ly
                       paid for lodging. The cost ofIodgin,g, excluding tax, may bereimbursedifit
 do~ DOt~ceed ~ maxim1IIIllodgiDgamountprescnW by the applicableper diem rate.
Employees are encowagedto pres= hotcts '\tlith t4x exemptfopm whoncver posS111le;       however,
taxes cnlodging may be re.iII1bursed a miscellaneous
                                       a:s               expense.                                 .




   -2.    d _26,     .ON                              -'3SNnoJ ~1:J3S       :.JS        Wt:i6S:'t't   2002"22"1.:)0
                                                                                                 -+ HY     INV


                     USE!         P AJD sT8~       520SS?Sr;z0
                                               -                                                                                           .
DSI22/.~2 .lQ:~J                FAX ~O251'3'7a         B~QR.--
                                                                                                    ..SAN        DIEGO
                                                                                                                                 ~OOZ/.G°.J


                                                                  US Dtp:lTtntent            /)f Justice
                                                                  Isnmigrarion ~nd Naturali'Zation S~rvice
                                      .;

                                                                    HQfIN 80/9                                            .
                                                                                         \'.v"bt!t..,~'£'f               /J)d4   dnV
                                                                  41J' Sl,~ct.
                                                                     !       H1Y                        /
                                                                  fYot/riJlgiaw: 1.05J6'
                                                                             DC                    .
                            ,                                            I.                                                            '
                                                                   ..'                 ~r;
                                                                              .'       -. D2




         MEMORANDUM FOR ALL INS EMPLOYEES                                          .

        FRO!v~:                    Jw:ty R.
                                                    .K."'1kAA~~




                                                              ,          .
                     ...~                               J...'",                                     .
               Pleastmt~ tQa~ infOm12.tion
                                the             containedin thesentessages doesnot suFersed~  specific
       l~age     ia the LTlruigratiol1and NaturalizationServ~e's bargaining unit contnctS. Rather',the
       provisions ofthcose rnessage.s ~ould be-understood applied in a manner consls,tent
                                                           and                              with the .
       requircments th~ applicable
                   of             ItJ.bor
                                        agrec~ent. an,Y.
                                                i:
      ~neral &1!!§.

      1. QYESnON: What typesof accotnmodatiocsshouldr obtain ~hile on official TDY?                                         "
                 .
            ANSWER; Employees aIe encoun!.ged stay in cc.Ilventionallodgingfacilities, such.as
                                                  to
           cornmcrcial hotels, motels an~ lodges,that have beenapprovcd by the Fcdcral Emergcncy
           Managf"mentAgency (FEMA) as "approved"acCDtnmOdations." a list of FEMA "approved'
                                                                         Fot'
           hotels~you may vigjt ~Y'Jf1Y.t)plicvworks.J!O"/tra~lmake your reservationstMQUgh
                                                            or                               your
           local Tt-aYel
                       Ma.nageme~t   Ccntor (TM.c)- ~fetence; Federal Travel Re,g-ulation(FT!?)
        0" Secrion       SOl-IJ.J!




       O'..J          ~)'nl.l                                     I3S1-1m:)        ?:JO1:)3S :)GS           Wd00:2t      2002'22"1:>0
                             U S B P AJO S~~              5203S?S6Z0


    ~-~~2~~~L_IO:4J           PAL 2025143(78        -o.
                                                     c      BOSbR.
                                                                                                     ..SAN       J>I~GO   o.   '~~D3/0Ca
                                                                       ..



                                          ,     .
                       Nlt'Cllorandum for All Employees
                       Subjet:t: Frcqucntly Asked QuestiOI1Sabo.ut'Temporary nut.>,Travel #1 &                        Pagel
                                          -==




                                                                                                             .
                      _L"d     26.i."ON                                     l3SI-Jm:)   ?JOl:)]S   :)GS      Wd1~:21 Z00Z'22'l:x)
~
                                                                li.S. DcpartPlt'nt 01"
                                                                                     JUstit'e
                                                                 lmmlgro\ion and NIi"lreliution   Service



                                                                 HQFI\I 80/9


                                                                  JJ51,"I"'~I\J!'
    ()r!i;;~ vrlhc (;c.nln,i:;"ioner                              :/.Q:llj))~jO'1   ()C" 211336




                                                                       SEP 052002




         MEMOR ANDUM fUR ALL E.MPLn'l'[CS
         fROM:                   J1meSW.z.ig11~
                                 Con1missiont:r
                                                       -~

                                 Imn1igrdlil.ll' and NaI ~11Z3tion
                                                                  ,~-Q

                                                                 Sf?rvirr
                                                                           ~D
                                                                                        .




                                  .Q!imirl\!.Fxn~~3_t9r Official Traw
         SUDJELf:




                        I Jr.now rlll1t most IN~ employees Rr~ 11\lI\cstand la\v abiding wlJ~1l filin:   their travel
            youchers HlIwevcf. plcasc IcnowthaI w~ iT\It:lldto idcntify those inuivinll!.ls who file fra.udulc-111

            claims and llr1\1 with thcm 3.ppropriately




~
        MEMORANDUM                                                       September    1,   1998

        TO:            Heads of Department       Components

                       /s/
                       Stephen R. Colgate
                       Assistant   Attorney     General
                           for Administration

        SUBJECT:       Revised Policy     Guidelines  for      Authorizing      and
                       Administering     Extended Travel       Assignments

        Attached     are policy      guidelines     for autho~izing    and administering
        extended     travel    assignments.        Since my issuance    of guidance    on
        March 3, 1997, the Taxpayer Relief               Act of 1997 was enacted,
        rendering      as non-taxable,        extended travel    assignments   of the
        Department's      investigators,       prosecutors,    and support personnel.
        Extended     assignments       for other program or administrative         purposes
        may still      be taxable     under the Internal      Revenue Code.     The
        attached     guidelines      address the issue of taxability         of such
        assignments.

        These guidelines        were developed     to     assist  components   in
        interpreting        and implementing    the     federal   and Department     of
        Justice      Travel   Regulations,    and to      achieve greater    consistency
        within     the Department       in managing     extended travel   assignments.

        If you have any questions    concerning            these    policies,   please call
        James E. Williams, Director,    Finance            Staff,    on (202)   616-5800.

        Attachments




.
FROM:
                  POLICY       GUIDELINES      FOR EXTENDED TRAVEL ASSIGNMENTS

                                            September 1, 1998

                                            Law and Regulations

     The   current        statutory      and regulatory       requirements~~~s             follows:
            When.,   travel
                        0         to   a single  location       is expected    to   last     for an


            extended     period,    per diem should    be reduced    if  the employee
            is able     to obtain    lodgings   at a weekly   or monthly       rate that
            is   less   than    the maximum allowable.      [Federal    Travel
            Regulation,       41 CFR § 301-7.12(b)]

     2.     When travel    to a single    location    ~s expected   to be prolonged
            or indefinite,    consideration      should be given.to     transferring
            the employee to the new location.           [Supplement   to Order DOJ
            2200.11D,          § 301-1.7]

     3.     Generally,          when travel   to a single  location           is expected    to
            exceed or          actually  exceeds one year,    certain           reimbursements
            constitute          taxable  income to the employee.
             [26 U.S.C.         §162(a)]

     4.     Travel     which is certified     as being for the purpose of
            investigation      or prosecution    of a federal  crime is excepted
            from taxation      under 26 U.S.C.    § 162(a).   The exception was
            enacted     by The Taxpayer Relief     Act of 1997, Pub. L.
            No. 105-34,     § 1204,


                                            Policy   Guidelines

     The following       are the policy   guidelines     of the Department      which
     apply     to all components.      In each instance     of extended     travel
     a~~m~lJt;s      );;ne_xcess ~!. 90Ja-a-;;;s, a Memorandum of Understaooing
      (MOU) must be executed       between the employee,       the official
     authorizing      the assignment,    and an official     at the temporary       duty
     site    in accordance     with item #6 below.

           Extended        Travel      Defined:      Extended     trave!-js   travel       to   a
            srng-lelocatiOri           whJ.cn exceeds       30 days .-

     2.    Reduced per diem.      When a travel  assignment   is expected   to
           last    more than 30 days and where it is possible     to secure
           lodging     and meals at less than the maximum allowable     by
           travel    regulations,  total per diem, consisting    of lodging




.
1.
         plus  the M&IE                                                                           to   a level          of no
         more than 75 percent                    of                              allowable             for     temporary
         duty travel.

    c;          ~aS5ignment               ~~t-        ~~ll         las~   more      than          90   d~         per     diem
         must      be'    0    reduced~          Normiarry,--per                 diem      will        be    reduced
         we        elow the 75 percent      level.       Absent extenuating
         circumstances,       the 75 percent       level    is the ceiling.       There
         is no minimum entitlement.            The actual       amount authorized
         should     approximate    the employee's        actual    expenses.     At the
         discretion      of the authorizing        officer,     full   per diem may be
         allowed     for the first    30 days of an assignment             that will
         last    more than 90 days, to afford            the detailed      employee the
         opportunity            to obtain         lower        cost lodging                and meals.

         Exceptions   authorizing     in excess of 75 percent    of the
         maximum per diem must be approved by the Component Head or
         the Component Head's Principal        Deputy,  or other  official
         delegated  such authority      by either   the Component Head or his
         or her Principal     Deputy.

         As an example, consider         a detail   to Washington,    DC.  The per
         diem for Washington,      DC is $12~ per night       for lodging   plus
         $38 per day for M&IE.         The maximum allowable       for 30 days is
         $4,860.    Seventy-five    percent      of that amount is $3,645,
         consisting   of $2,790 for lodging         plus $855 for M&IE.     The
         $3,645 establishes      a ceiling.

                                                 Maximum                                       75%
                              Lodging      $124 X 30 = $3,720                               $2,790
                              M&IE           38 X 30 = 1,140                                    ass
                              Total                    $4,860                               $3,645

     Often,     when lodging     is secured on a monthly basis,           the cost
     will    be lower than 75 percent        of the lodging      allo~lance   times
      30 nights.       For example,   if an employee on an extended
     assignment      in Washington    obtains    lodging    for $1,700 per
     month,     a total   per diem of $2,555--53        percent   of the maximum
     allowance--would        be appropriate    for a flat      monthly rate.
     The actual      rate to be allowed      nust be determined        in each
     case,    based on the expenses the detailed            employee is
     anticipated       to incur.

     Other   Expenses Considered.     If the employee were to
     demonstrate    the necessity   to incur additional     reasonable
     costs  to maintain   dual residences    while  on temporary    duty,
     those  additional   costs may be considered      in setting   the




.
           lodging     allowance.         In this example,         if an employee were to
          demonstrate          an additional     $100 in reasonable            costs     that are
           directly       related    to the temporary         duty assignment,           then the
          total     allowance       could be set at $2,655 as a flat                 monthly
          rate.       That amount, approximately               55 percent      of the maximum,
          would consist           of the actual      cost of lodging         plus $100 for
          the additional           costs relating        to the primary        residence       and
           75 percent        of the M&IE allowance.
     3.   Return Trips Home.             There is no regulatory            limit     to the
          number of trips           an employee may be required              to make for
          official       purposes.       When an employee is on an extended
          travel     assignment,        return   trips     to the employee's           place of
          abode may be authorized              based on a determination              that    it is
          advantageous          to the government.           Such trips,      paid for by the
          government,         should not be authorized            more frequently          than
          twice     per month, based on length of the assignment                        and other
          particulars         of the individual         assignment.       Fewer trips          may
          be authorized.            More frequent       return    trips   home require
          special       approval     by the Component Head or his or her
          Principal        Deputy,    or other official          delegated      such authority
          by either        the Component Head or his or her Principal                      Deputy,
          unless      it is cost effective           to    authorize     more frequent
          trips.

          A specific      case-by-case    cost analysis    is not required        to
          conclude     that the costs of periodic       weekend return       travel
           (including     the costs of potential     overtime,      if applicable)
          are outweighed       by the savings    in terms of per diem,
          increased      employee efficiency     and productivity,      as well as
          reduced     costs of recruitment     and retention       of employees.

          Effect     of Leave and other Official              Travel    on Reimbursement.
                  When a detailed          employee is on leave,          or while    away
           from the extended assignment              on a return      trip    home, or away
          for official        travel     to a different       temporary      duty location,
          the reduced per diem will              be further      reduced by the daily
          M&IE allowance         used to calculate         the reduced per diem times
          the number of days the employee is away from the extended
          assignment      location.         When the employee is on official
          travel,     per diem shall         be paid for the location            of that
           temporary    duty.        Only the M&IE portion          of per diem paid at
          the extended assignment              is not paid when the employee is
          away from the extended assignment location:                        all other
          expenses     will     continue     to be paid in accordance            with the
          extended     travel     authorization.         If lodging       for the extended


                                                 3




4.
          travel   assignment   had been on an actual  basis rather   than
          part   of reduced per diem,   it too could not be paid when
          temporary    duty travel  away from that location  is authorized.

          Relocation      option.      When it is known at the outset            of an
          extended assignment,           or when it becomes known that           it will
          last     for a year or more, the transfer           option    should be
          considered.         A cost comparison      need not be the sole basis
          for    the transfer      decision.     Other factors,      including     but not
          limited     to, personnel       management,   employee efficiency         and
          productivity,        short and long term program goals and
          strategies      should be considered.         After   March 22, 1997,
           temporary     relocations      with limited   reimbursements        to
          employees      may be authorized,       in accordance      with the Federal
          Employee Travel         Reform Act of 1996 and implementing
          regulations       to be issueq by the General ServicesAdministration.


     6.   Taxat:,ility     of Lodging and Meal Allowances.               The following
          applies       to extended travel      assignments,        except    for travel
          assignments        which have been certified            as being in direct
          support      of investigation       and prosecution        of civil     and
          criminal       matters.     When extended assignments            exceed one year
          or when it is reasonably            expected     that the assignment        will
          exceed one year,         reimbursements       (or payments made by the
          agency on behalf         of the employee)       for lodging        and M&IE will
          constitute       taxable    income to the employee.            Reimbursements
          for    lodging     and M&IE will     constitute      taxable     income to the
          employee from the point           that the reasonable          expectation
          arises      that the extended assignment           will    exceed one year.

          Even though the term of the assignment     may be difficult                to
          determine   at the beginning,  the MOU must state  an
          expectation   of the term of the assignment.

          The taxable     payments/reimbursements     are subject  to federal,
          state,   and local   income tax with.~olding,    FICA withholding
           (as appropriate),     and Medicare withholding.

          To reduce the number of instances           in which it is necessary
          to tax employees for their        travel   reimbursements,    the
          Department's     policy  is that per diem payments will         not
          extend    beyond one year,    unless approved by the Component
          Head or his or her Principal         Deputy or other official
          delegated    such authority    by either      the Component Head or his


                                              4




.
5.
      or her     Principal    Deputy.

7.   Exception        to Taxation      -Investigation            and Prosecution.
     The Taxpayer Relief            Act of 1997: Pub. L. No. 105-34,                    § 1204,
     excepts      from the l-year         limitation         on travel     deductions
     under § 162 (a) of the Internal                    Revenue Code, any federal
     employee during          any period for which such employee is
     certified        by the Attorney        General       (or designee       thereof)      as
     traveling        on behalf     of the United States             in a temporary         duty
     status     to investigate,         or provide         support     services     for the
     investigation         of a federal       crime.        The Internal        Revenue
     Service     has interpreted          this provision          to also include
     travel     to prosecute        a federal      crime.       Accordingly,        any
     extended       travel    assignments       which have been certified                as
     such,     are not taxable.           The Attorney         General     has delegated
     to the Assistant           Attorney     General for Administration,                 the
     authority        to certify      employees as traveling             on behalf       of the
     United     States to investigate,             litigate,       or prosecute        federalcrimes.
                   This certification           is only necessary           when the

     travel      would   otherwise      be taxable      as described        in   paragraph
     6.
8.    Receipts   Not Required.       When extended travel       allowances   have
     been authorized      in accordance     with these policies        and have
     been documented through         the required    Memorandum of
     Understanding      demonstrating    the appropriate      per diem
     reductions,     the per diem rate ~ayable on the payment voucher
     will    be paid without    receipts    normally   provided     by the
     employee.     (See 41 CFR § 301-7.12.)

9.   Memorandum of UnderstaDding             (MOU).    In each instance       of
     extended      travel     assignments    in excess of 90 days,       an MOU
     must be executed between the e~ployee,               the official
     authorizing        the assignment,      and a senior    official    at the
      temporary      duty site,      (so that allowances     may be monitored
     for    equity     among all    DOJ employees at that location),           and
     must specify         all  elements    of reimbursement      and conditions
     affecting       those elements,       as follows:

     a.       Dates.   The MOU must state    a beginning    date and an
              expected ending date.     The term of the MOU generally
              may not exceed one year;    therefore,    all MOUs must be
              renewed no less frequently     than annually.



                                             5
     b.   Cost.    MOUs must include    the amount of per diem to be
          paid,   demonstrating   appropriate   reduction    and approvals
          in accordance     with Department policy.       The per diem
          authorized   should always state separately,        the lodging
          and the M&IE, even when the total       per diem has been
          reduced in accordance     with paragraph 2.

          Residebce.        The MOU must require     the employ~e to
           cert ify whether or not he or she intends:            t~; maintain    a
          personal     abode in a real     and substantial       sense at the
          permanent duty station.          The MOU must also require          the
          employee to notify       his or her supervisor         if at some
          point    during    the assignment,    the personal       abode at the
          official     duty station    is no longer maintained,          or has
          been changed in a substantial           manner to reduce living
          expenses.       The MOU must also require        that    the employee
          notify    his or her supervisor        of any change in the cost
           of lodging     at the temporary     duty location.         Management
          should review such changes in expenses to determine
          whether    any adjustment      in the lodging     allowance     is
          necessary.

          Return Trips Home.        The Mali must specify    the frequency
          of return   trips    home that will    be reimbursed      by the
          Government,     excluding   trips  required   for official      duty
          for purposes relating       to the extended assignment        or for
          other purposes.
          Taxability.,         The MOU must state whether or not any
          payments on behalf of, or reimbursements             to,    the
          employee are to be considered           taxable  income to the
          employee.         Unless excepted under paragraph        6., MOUs for
          assignments        expected    to exceed one year must contain      a
          specific       provision    that all per diem reimbursements      are
          taxable      income to the employee.




                                       6




e.
d.
c.
